<html>
<title> - THE OBAMA ADMINISTRATION'S ELEMENTARY AND SECONDARY EDUCATION ACT REAUTHORIZATION BLUEPRINT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 

                       THE OBAMA ADMINISTRATION'S
                   ELEMENTARY AND SECONDARY EDUCATION
                     ACT REAUTHORIZATION BLUEPRINT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 17, 2010

                               __________

                           Serial No. 111-52

                               __________

      Printed for the use of the Committee on Education and Labor



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
  550303 PDF              WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director







                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 17, 2010...................................     1

Statement of Members:
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     5
        Prepared statement of....................................     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     2
        Prepared statement of....................................     4
        Questions submitted for the record.......................    45
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the State of Virginia, policy brief: ``Schools Without 
      Diversity: Education Management Organizations, Charter 
      Schools, and the Demographic Stratification of the American 
      School System,'' Internet address to.......................    31

Statement of Witnesses:
    Duncan, Hon. Arne, Secretary, U.S. Department of Education...     8
        Prepared statement of....................................    13
        Responses to questions for the record....................    52

 
                       THE OBAMA ADMINISTRATION'S
                   ELEMENTARY AND SECONDARY EDUCATION
                     ACT REAUTHORIZATION BLUEPRINT

                              ----------                              


                       Wednesday, March 17, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 2:45 p.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Scott, Woolsey, Hinojosa, McCarthy, Tierney, Holt, Davis, 
Grijalva, Bishop of New York, Loebsack, Hirono, Altmire, Hare, 
Clarke, Courtney, Shea-Porter, Polis, Tonko, Pierluisi, Sablan, 
Titus, Chu, Kline, Petri, McKeon, Hoekstra, Castle, Souder, 
Ehlers, Biggert, Platts, McMorris Rodgers, Bishop of Utah, 
Guthrie, Cassidy, Roe, and Thompson.
    Staff Present: Tylease Alli, Hearing Clerk; Andra Belknap, 
Press Assistant; Calla Brown, Staff Assistant, Education; Jamie 
Fasteau, Senior Education Policy Advisor; Denise Forte, 
Director of Education Policy; Ruth Friedman, Senior Education 
Policy Advisor, David Hartzler, Systems Administrator; Fred 
Jones, Junior Legislative Associate, Education; Sharon Lewis, 
Senior Disability Policy Advisor; Sadie Marshall, Chief Clerk; 
Bryce McKibbon, Staff Assistant; Charmaine Mercer, Senior 
Education Policy Advisor; Alex Nock, Deputy Staff Director; 
Lillian Pace, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secondary Education; Helen Pajcic, Education 
Policy Associate; Kristina Peterson, Legislative Fellow, 
Education; Rachel Racusen, Communications Director; Julie 
Radocchia, Senior Education Policy Advisor; Meredith Regine, 
Junior Legislative Associate; Alexandria Ruiz, Administrative 
Assistant to Director of Education Policy; Melissa Salmanowitz, 
Press Secretary; Mark Zuckerman; Staff Director; Stephanie 
Arras, Minority Legislative Assistant; James Bergeron, Minority 
Deputy Director of Education and Human Services Policy; Kirk 
Boyle, Minority General Counsel; Allison Dembeck, Minority 
Professional Staff; Amy Raaf Jones, Minority Higher Education 
Counsel and Senior Advisor; Barrett Karr, Minority Staff 
Director; Alexa Marrero, Minority Communications Director; 
Susan Ross, Minority Director of Education and Human Services 
Policy; Mandy Schaumburg, Minority Education Policy Counsel; 
and Linda Stevens, Minority Chief Clerk/Assistant to the 
General Counsel.
    Chairman Miller. A quorum being present, the committee will 
come to order.
    The committee meets today to hear from Secretary of 
Education Arne Duncan on the blueprint that was made public 
earlier this week and to discuss that with members of the 
committee. This was done at the urging of the bipartisan group 
in the House and the Senate that the Secretary has been meeting 
with and that has been meeting on the reauthorization of the 
ESEA. So thank you, Mr. Secretary, for doing that.
    I will recognize myself at the beginning, and then 
recognize Congressman Kline.
    Today, Secretary Duncan joins us to discuss President 
Obama's newly released blueprint for rewriting the Elementary 
and Secondary Education Act. Thank you, Mr. Secretary, as I 
said, for being with us.
    Two weeks ago, you outlined President's Obama vision for 
providing a world-class education to every child in this 
country. You told us that the status quo is failing our 
students, you told us that a strong education system is key to 
our long-term economic stability, and members of this committee 
on both sides of the aisle agree.
    Right now, even our best students are performing at lower 
levels in math than students in 22 other countries. Nearly 80 
percent of U.S. Students are entering the ninth grade unable to 
read at grade level. This has to change. It is time to overhaul 
and improve ESEA so that the law finally lives up to its 
promise, to provide an equal and excellent education for every 
child in America.
    These improvements will require dramatic reforms to regain 
our role as a world leader in education. But if we are 
successful, I believe we can build a solid economic foundation 
for future generations.
    What our students need to succeed isn't a mystery. They 
need a challenging and rigorous learning environment tied to 
college and career-ready standards. They need creative and 
effective teachers who hold them to high standards and who can 
adjust their teaching strategies when needed.
    Innovative reformers across the country at the local level 
are making significant progress in many of these areas. Now at 
the Federal level, we have to match their courage to disrupt 
the system and push the envelope.
    I believe that the blueprint that Secretary Duncan presents 
us offers a strong roadmap for this kind of systemwide change. 
Eight years ago I helped write our current version of the ESEA, 
the No Child Left Behind Act, and in many ways the law was 
transformational. It helped shine a bright light on what was 
really going on in our schools.
    It told all of us, lawmakers, educators, school boards and 
the community, that it was no longer acceptable for any student 
to be invisible. It showed us how all students and schools were 
faring, not just the richest district or the highest achieving 
students. The results were difficult for many to swallow, but 
it showed us the value of accountability for our students. It 
provoked a conversation about education in this country that 
has gotten us to where we are today.
    But we know we didn't get everything right. The blueprint 
we will hear about today rightfully gives some control back to 
the States and districts to allow them to determine their own 
best strategies to turn around their lowest performing schools, 
and it switches the conversation from one about proficiency to 
one about ensuring that our students graduate ready for college 
and a career.
    We now have an incredible opportunity to help reshape the 
future of this country. The Obama administration has already 
launched game-changing reforms for our schools. Many States are 
taking unprecedented steps in the right direction.
    In my home State of California, the State legislature 
removed the firewall that prevented student achievement data 
from being linked to teacher performance, a move that was a 
long time coming. And in order to qualify for a second round of 
Race to the Top funding, California recently released the list 
of its 187 persistently unperforming schools. California's 
recent actions and the actions of so many other States have 
signaled they are ready to help fix schools that are 
chronically failing our students.
    As we take a close look at the administration's blueprint 
today, I would like to lay out some of the fundamental goals of 
what we must address in this rewrite. We need to reset the bar 
for our students and for the Nation.
    First, we need to ensure that every child can be taught by 
a great teacher, especially those who need them the most. 
Teachers are our single most important factor in determining 
student achievement, but all of the burden cannot fall on their 
shoulders. Yet we have 14 percent of our new teachers who 
stopped teaching in their first year, more than a third leave 
teaching after 3 years, almost 50 percent leave after 5 years. 
That would suggest there is something wrong with their 
workplace. We can't expect teachers to stay in a system that 
doesn't treat them with the same level of professionalism as 
other careers. We can support great teaching in classrooms 
across this country by providing them with the right tools, 
like extended planning time, more opportunities for career 
development, and the resources necessary to carry out their 
tasks, and by making sure that they have data at their 
fingertips on how the children are learning and how we can make 
success an outcome for every child.
    Second, the quality of a child's education should not be 
determined by their ZIP Code. Every school in every State needs 
to hold their students to rigorous internationally benchmarked 
standards that prepare them for college or a career.
    Third, there are districts and schools across the country 
seeing incredible success after years of stagnant results. 
These schools were given room to innovate. They kept their 
focus on achieving the highest levels and holding themselves 
accountable for all students. We must encourage States and 
districts to innovate and to think differently while 
maintaining high standards for all.
    Lastly, we have to ensure that we are reaching every 
student with the right resources in every classroom. Secretary 
Duncan, you have said repeatedly that our students get one 
chance at an education. One chance. I think the President's 
blueprint lays important markers for where we begin this 
rewrite. It will help build the kind of world-class school 
system our economy needs and our children deserve.
    Secretary Duncan, again, thank you for being with us today. 
Thank you for your leadership and your vision. I look forward 
to your testimony.
    With that, I would like to recognize the senior Republican 
on the committee, Congressman John Kline.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good afternoon.
    Today Secretary Duncan joins us to discuss the Obama's 
administration's newly released blueprint for rewriting the Elementary 
and Secondary Education Act.
    Thank you, Mr. Secretary, for meeting with us again.
    Two weeks ago, you outlined President Obama's vision for providing 
a world class education to every child in this country.
    You told us that the status quo is failing our students.
    You told us that a strong education system is key to our long-term 
economic stability.
    Members of this committee, on both sides of the aisle, agree.
    Right now, even our best students are performing at a lower level 
in math than students in 22 other countries.
    Nearly 80 percent of U.S. students are entering the ninth grade 
unable to read at grade level.
    This has to change.
    It's time to overhaul and improve ESEA so that the law finally 
lives up to its promise: to provide an equal and excellent education 
for every child in America.
    These improvements will require dramatic reforms to regain our role 
as a world leader in education.
    But if we are successful, I believe we can build a solid economic 
foundation for our future generations.
    What our students need to succeed isn't a mystery.
    They need a challenging and rigorous learning environment tied to 
college and career ready standards.
    They need creative, effective teachers who hold them to high 
standards--and can adjust their teaching strategies when needed.
    Innovative reformers across the country, at the local level, are 
making significant progress in these areas.
    Now, at the federal level, we have to match their courage to 
disrupt the system and push the envelope.
    I believe that the blueprint Secretary Duncan presents to us offers 
a strong roadmap for this kind of system-wide change.
    Eight years ago, I helped write our current version of ESEA, the No 
Child Left Behind Act.
    In many ways, the law was transformational.
    It finally helped shine a bright light on what was really going on 
in our schools.
    It told all of us--lawmakers, educators, parents, school boards--
that it was no longer acceptable for any student to be invisible.
    It showed us how all students and schools were faring, not just the 
richest districts or the highest-achieving students.
    The results were difficult for many to swallow.
    But it showed us the value of accountability for our students.
    It provoked a conversation about education in this country that has 
gotten us where we are today.
    But we know we didn't get everything right.
    The blueprint we'll hear about today rightfully gives some control 
back to the states and districts to allow them to determine their own 
best strategies to turn around their lowest performing schools.
    And it switches the conversation from one about proficiency to one 
about ensuring our students graduate ready for college and career.
    We now have an incredible opportunity to help reshape the future of 
this country.
    The Obama administration has already launched game-changing reforms 
for our schools.
    Many states are taking unprecedented steps in the right direction.
    In my home state of California, the state legislature removed the 
firewall that prevented student achievement data from being linked to 
teacher performance--a move that was a long time coming.
    And in order to qualify for the second round of Race to the Top 
funding, California recently released its list of 187 persistently 
underperforming schools.
    But California's recent actions, and the actions of so many other 
states, have signaled they are ready to help fix the schools that are 
chronically failing our students.
    As we take a close look at the administration's blueprint today, 
I'd like to lay out some fundamental goals for what we must address in 
this rewrite.
    We need to reset the bar for our students and the nation.
    First, we need to ensure that every child can be taught by a great 
teacher, especially those who need them the most.
    Teachers are the single most important factor in determining 
student achievement.
    But 14 percent of new teachers stop teaching after their first 
year. More than a third leave teaching after three years. Almost 50 
percent leave within five years.
    We can't expect teachers to stay in a system that doesn't treat 
them with the same level of professionalism as other careers.
    We can support great teaching in classrooms across this country by 
providing them with the right tools, like extended planning time, and 
more opportunities for career development.
    And by making sure that they have the data at their fingertips on 
how children are learning so we can understand how to better educate 
every child.
    Second, the quality of a child's education should not be determined 
by their zipcode. Every school, in every state needs to hold their 
students to rigorous, internationally benchmarked standards that 
prepares them for college and careers.
    Third, there are districts and schools across the country seeing 
incredible success after years of stagnant results.
    These schools were given the room to innovate. They've kept their 
focus on achieving at the highest levels and holding themselves 
accountable for all students.
    We must encourage states and districts to innovate, to think 
outside the box while maintaining high standards for all.
    Lastly, we have to ensure we're reaching every student with the 
right resources in every classroom.
    Secretary Duncan, you have said repeatedly that our students get 
one chance at an education.
    One chance.
    I think the President's blueprint lays the important markers as we 
begin this rewrite.
    It will help build the kind of world class school system our 
economy needs and our children deserve,
    Secretary Duncan, thank you again for being here.
    Thank you for your leadership and your vision.
    I look forward to hearing your testimony.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman.
    I especially want to thank the Secretary for being with us 
today and coming back so soon after your last appearance. 
Actually, very few Cabinet secretaries have your appetite for 
this much punishment.
    We are here this afternoon to discuss the administration's 
blueprint for ESEA, the Elementary and Secondary Education Act. 
These 45 pages have been anxiously awaited by many in the 
education community, the media, and, of course, here in 
Congress.
    For the last several weeks, we have been meeting at the 
Member and staff levels on a bipartisan basis with our 
counterparts in the Senate, and this blueprint is viewed by 
many as the first attempt by any one of those parties to put 
pen to paper and offer details on any substantive propositions. 
I appreciate the way Secretary Duncan has framed this document, 
and I hope we will keep his words in mind today.
    As the Secretary says, this is a blueprint, not a bill. 
Congress writes the laws, and I am pleased to say in the case 
of the Elementary and Secondary Education Act, for now we are 
starting with a blank sheet of paper. Of course, we know the 
blueprint will serve as a jumping-off point in many ways, 
giving us policy direction also to consider, and finding 
proposals we like and some we do not like so much.
    The Secretary and I have spoken candidly on several 
occasions, so I know he was not surprised to learn that I have 
some questions and concerns about the direction of certain 
policies we will discuss today.
    One such concern is the exclusion of public school choice 
in supplemental education services--most of us know as 
tutoring--from the required interventions for struggling 
schools. These tools would become optional but no longer 
required for some struggling schools.
    In reality, this means few if any students would have 
access to the immediate lifeline that tutoring and transfers 
provide. These concerns are precisely why we are here. I know 
there are Members on both sides of the aisle who hope to better 
understand the policies outlined in the blueprint and their 
potential consequences, both intended and unintended.
    I try to view the No Child Left Behind Act through the eyes 
of my constituents, the teachers, principals, superintendents 
and school board members who implement its requirements, and 
the parents who experience its consequences directly. From that 
perspective, I have come to the conclusion that the Federal 
Government is too involved in the day-to-day operation of our 
schools, the Federal requirements are too prescriptive, and the 
measures of success are not nuanced enough.
    As Congress prepares to write the next version of the 
Elementary and Secondary Education Act, I hope we do more than 
simply cast aside the NCLB name and expand its requirements. I 
believe we need to have a meaningful conversation about the 
appropriate Federal role in our schools.
    My fellow Republicans and I have developed a set of 
principles to help guide that reauthorization reform process. 
Briefly, we believe that to ensure student success in the 21st 
century, we must focus on what is best for students, parents, 
teachers, and communities.
    Four tenets that guide us are restoring local control, 
empowering parents, letting teachers teach, and protecting the 
taxpayers. These principles will guide us as we come to the 
table to help develop an approach to education policy that puts 
students before special interests and recognizes that 
innovation truly does come from the ground up.
    I know we are all anxious to hear from the Secretary, so I 
will close by simply thanking the Secretary once again for his 
approach. Whether we agree on every policy or not, the open and 
bipartisan process has truly been a breath of fresh air.
    Thank you, Mr. Chairman.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    I thank the gentleman for yielding and I especially want to thank 
the Secretary for coming back before the committee so soon after your 
last appearance. There are very few cabinet secretaries with your 
appetite for punishment.
    We're here this morning to discuss the Administration's blueprint 
for ESEA. These 45 pages were anxiously awaited by many in the 
education community, the media, and of course here in Congress.
    For the last several weeks we've been meeting at the member and 
staff levels on a bipartisan basis with our counterparts in the Senate, 
and this blueprint is viewed by many as the first attempt by any one of 
those parties to put pen to paper and offer details on substantive 
reform options.
    I appreciate the way Secretary Duncan has framed this document, and 
I hope we'll keep his words in mind today. As the Secretary says, this 
is a blueprint--not a bill.
    Congress writes the laws, and I'm pleased to say that in the case 
of the Elementary and Secondary Education Act, for now, we're starting 
with a blank sheet of paper.
    Of course, we know the blueprint will serve as a jumping off point 
in many ways--giving us policy directions to consider, and finding 
proposals that we like and some we do not like as much.
    The Secretary and I have spoken candidly on several occasions, so I 
know he was not surprised to learn that I have some questions and 
concerns about the direction of certain policies we'll discuss today. 
One such concern is the exclusion of public school choice and 
Supplemental Educational Services--what most of us know as tutoring--
from the required interventions for struggling schools.
    These tools would become optional--but no longer required--for some 
struggling schools. In reality, this means few if any students would 
have access to the immediate lifeline that tutoring and transfers 
provide.
    These concerns are precisely why we are here. I know there are 
members on both sides of the aisle who hope to better understand the 
policies outlined in the blueprint and their potential consequences--
both intended and unintended.
    I try to view the No Child Left Behind Act through the eyes of my 
constituents--the teachers, principals, superintendents, and school 
board members who implement its requirements and the parents who 
experience its consequences directly. From that perspective, I have 
come to the conclusion that the federal government is too involved in 
the day-to-day operation of our schools. The federal requirements are 
too prescriptive, and the measures of success are not nuanced enough.
    As Congress prepares to write the next version of the Elementary 
and Secondary Education Act, I hope we do more than simply cast aside 
the NCLB name and expand its requirements. I believe we need to have a 
meaningful conversation about the appropriate federal role in our 
schools.
    My fellow Republicans and I have developed a set of principles to 
help guide that reauthorization and reform process. Briefly, we believe 
that to ensure student success in the 21st century, we must focus on 
what's best for students, parents, teachers, and communities.
    The four tenets that guide us are:
    <bullet> Restoring local control;
    <bullet> Empowering parents;
    <bullet> Letting teachers teach; and
    <bullet> Protecting taxpayers.
    These principles will guide us as we come to the table to help 
develop an approach to education policy that puts students before 
special interests and recognizes that innovation truly does come from 
the ground up.
    I know we are all anxious to hear from the Secretary, so I will 
close by simply thanking the Secretary once again for his approach. 
Whether we agree on every policy or not, the open and bipartisan 
process has truly been a breath of fresh air.
    I yield back.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Let me take a moment. Although Secretary Duncan needs no 
introduction to this committee, this is being broadcast, so I 
would like to introduce Secretary Duncan.
    He was appointed to be Secretary of Education by President 
Barack Obama. That is rather obvious. Prior to his appointment, 
Secretary Duncan served as Chief Executive Officer of the 
Chicago Public Schools and became the longest-serving big-city 
education superintendent in the country.
    As the Chief Executive Officer, Secretary Duncan raised 
education standards and performance, he improved teacher and 
principal quality and increased learning options. During his 
7\1/2\-year tenure, he united education reformers, teachers, 
principals and business stakeholders behind an aggressive 
education reform agenda.
    As Secretary of Education, he has spearheaded major 
education reforms, including The Race to the Top and Investing 
in Innovation Fund. I know I am not alone in saying that he has 
done a tremendous amount in his first year to improve 
educational opportunities for children across this country.
    We welcome you and thank you for joining us. You proceed in 
the manner in which you are most comfortable. We are going to 
allot you a couple of extra minutes here because this is a big 
subject with a big blueprint, and we want to make sure you are 
comfortable explaining it to the members of the committee.

 STATEMENT OF HON. ARNE DUNCAN, SECRETARY, U.S. DEPARTMENT OF 
                           EDUCATION

    Secretary Duncan. Thank you so much, Mr. Chairman, 
Representative Kline, and to all the members of the committee, 
it is a true honor to be here with you today. I want to thank 
each of you for your hard work and commitment on education.
    I believe that education is the one true path out of 
poverty. It is the great equalizer in our society, and as the 
President said in his weekly address on Saturday, there are few 
issues that speak more directly to the long-term prosperity of 
our Nation than education. Education is the one issue that must 
rise above ideology and above politics. We can all agree that 
we have to educate our way to a better economy.
    We currently have an unprecedented opportunity to reform 
our Nation's schools so they are preparing all of our students 
for success in college and in careers. Today, Chairman Miller, 
as you pointed out, the status quo clearly is not good enough.
    Consider just a few statistics: 27 percent of America's 
young people drop out of high school. That means 1.2 million 
teenagers are leaving our schools for the streets. That is 
economically unsustainable and morally unacceptable.
    In a recent international test of math literacy, our 15-
year-olds scored 24th out of 29 developed nations. In science, 
our 15-year-olds ranked 17th out of 29 nations. And just 40 
percent of young people earn a 2-year or 4 year college degree. 
The U.S. now ranks tenth in the world in the rank of college 
completion for 25- to 34-year-olds. A generation ago, we were 
first in the world. But we have fallen behind. The global 
achievement gap is growing. If we are serious about preparing 
our Nation's young people to compete in a global economy, we 
must do better.
    Through the American Recovery and Reinvestment Act, we have 
built a foundation for reform. All States are pointing to the 
progress they are making in four areas of reform: raising 
standards; developing and recruiting excellent teachers and 
leaders; using data to inform instruction; and turning around 
our lowest performing schools.
    In The Race to the Top Fund, we have identified 16 
finalists for the first phase. We have invited all the 
finalists to present about their plans, and we will be 
announcing the winners during the first week in April. The 
winners will blaze the trail on reforms that will improve 
student achievement for decades to come.
    To promote reforms in every State, I am committed to 
working with you in 2010 to reauthorize the Elementary and 
Secondary Education Act. It has been more than 8 years since 
Congress last authorized ESEA through the No Child Left Behind 
Act. That is the longest gap between reauthorizations in the 
45-year history of ESEA.
    We all recognize that NCLB had its flaws, and the time to 
fix those problems is now. My staff and I have reached out to 
listen and learn from people across the country and to hear 
what they think about NCLB. My senior staff and I visited every 
State on our listening and learning tour. We met with parents, 
teachers, and students themselves. We have engaged in literally 
hundreds of conversations with stakeholders representing all 
sections of the education community.
    In all of our conversations, we have heard a consistent 
message that our schools aren't expecting enough of our 
students. We need to raise our standards so that all students 
who are graduating are prepared to succeed in college and the 
workplace.
    We have also heard that people aren't looking to Washington 
for answers. They don't want us to provide a prescription for 
success. Our role should be to offer a meaningful definition of 
success, one that raises the bar and shows teachers and 
students what they should be striving for.
    With those lessons in our mind, we have developed our 
blueprint for ESEA reauthorization. We have shared that with 
you, Mr. Chairman, and I ask that the blueprint be entered into 
the record of this hearing.
    In this blueprint, you will see that everything is 
organized around our three major goals for reauthorization: 
first, raising standards; secondly, rewarding excellence in 
growth; and third, increasing local control and flexibility 
while maintaining a laser-like focus on equity and closing 
achievement gaps.
    All of these policy changes will support our effort to meet 
the President's goal that by 2020 America once again will lead 
the world in college completion.
    In particular, the ESEA will set a goal that by 2020 all 
students will graduate ready to succeed in college and in the 
workplace. We will build an accountability system that measures 
the progress that States, districts and schools are making 
towards meeting that goal.
    We have a comprehensive agenda to help us meet that goal. 
It starts with asking States to adopt standards that truly 
prepare students for success in college and careers. Governors 
and chief State school officers of 48 States are doing the 
tough job of setting these standards in reading and in math. 
The leadership at the local level has been remarkable, and the 
effort is supported by both major unions and by the business 
community.
    In our proposal we call on States to adopt college and 
career-ready standards, either working with other States or by 
getting their higher education institutions to certify the the 
standards are rigorous enough to ensure students graduate ready 
to succeed in college-level classes or to enter the workplace.
    But standards alone aren't enough. We will need a new 
generation of assessments that measure whether students are on 
track for success in college and careers. We will support the 
effort to develop those assessments so they will measure a 
higher order of skills, provide accurate measures of student 
progress, and give teachers the information they need to 
improve student achievement. These standards and assessments 
are key parts of our effort to redefine accountability.
    Under NCLB, the Federal Government greatly expanded its 
role in holding schools accountable. It did several things 
right, and I will always give NCLB credit for its important 
contributions to education reform.
    It required all States to be included in the accountability 
system, including minority students, students with 
disabilities, and English language learners. It required 
States, districts, and schools to report test scores just 
aggregated by student subgroups, exposing achievement gaps like 
never before. We know the achievement gap is unacceptably large 
and teachers and school leaders throughout the country are 
working in mobilizing to address that problem. NCLB was right 
to create a system based on results for students, not just on 
inputs.
    But NCLB's accountability system needs to be fixed now. 
There are way too many perverse incentives. It allows, even 
encourages, States to lower standards. It doesn't measure 
growth, and it doesn't reward excellence. It prescribes the 
same interventions for schools with very different needs. It 
encourages a narrowing of the curriculum and focuses on test 
preparation. It labels too many schools with the same failing 
label regardless of their challenges. It encouraged schools to 
focus their efforts on only that tiny percent of students close 
to the proficiency bar and neglect a vast majority above or 
below that line.
    We need adults focused on all children, not only on any 
small handful in a classroom or in a school. We can't sustain 
momentum for reform if we don't have a credible accountability 
system that addresses these issues.
    Our proposal will make significant improvements on 
accountability. The biggest and most important one is that it 
will use student academic growth as the most important measure 
of whether schools, districts, and States are making progress. 
I am much more interested in growth and gain than absolute test 
scores, as long as students are on a path toward meeting those 
standards.
    Under our plan, we will reward schools, districts, and 
States that are making the most progress. At the same time, we 
will be tough-minded on our lowest performing schools and 
schools with large achievement gaps that aren't closing, 
although the schools will be given flexibility to meet 
performance targets working under their State and local 
accountability system. If we get accountability right, we will 
provide the right incentives to increase student achievement, 
and I am confident America's students, teachers, and principals 
will deliver.
    I would like to focus on the critically important work of 
teachers and leaders. The teaching and learning that happens in 
schools every day are what drives American education. We spend 
a lot of time talking about reform, about the proper Federal 
role, about the cost of education and the need for more funding 
and about competitive versus formula, and all of those are 
important debates to have.
    But we can never lose sight of the impact our decisions 
have on classrooms where teachers are doing the hard work every 
single day of helping our children learn. Every decision must 
be viewed through the framework of improving instruction for 
our Nation's children. Our partnership with teachers and 
parents' partnerships with teachers empowers them to do their 
job well.
    We believe that there is a lot in our proposal that 
teachers will like. We know that there is a lot under current 
law that teachers don't like. Most teachers believe that we 
have a broken system of accountability. Many teachers believe 
their evaluation support systems are flawed.
    We need a system of accountability that is fair. I have 
never met a teacher yet who is afraid of accountability. All 
they ask is for a system that measures each child's progress, 
not last year's students against this year's students. We need 
better evaluation systems that are honest and useful and 
elevates rather than diminish the teaching profession.
    All told, we are requesting a record $3.9 billion to 
strengthen the teaching profession, an increase of $350 
million. We begin with the understanding that teaching is some 
of the toughest and absolutely the most important work in 
society, and we are deeply committed to making it a better 
profession for teachers.
    To start with, we are encouraging the development of high-
quality teacher preparation programs. Today, many teachers tell 
us that they are underprepared for what they face in the 
classroom. They have to learn too much on the job.
    We are encouraging the development of meaningful career 
ladders and stronger efforts to retain the great teachers we 
have. We lose far too many of those great young teachers due to 
a lack of support.
    From newly hired teachers to tenured teachers to master 
teachers, mentors, department heads, and principals, we need to 
rebuild education as a profession with real opportunities for 
growth that sustain a teacher's craft over a career, not just a 
couple of years.
    We want to encourage schools and districts to rethink how 
teachers can best do their jobs, how they collaborate, how they 
use their time outside the classroom, and how they shape 
professional development programs. When adults have time to 
collaborate and solve school problems together, they are going 
to be much more productive and they will get better results for 
our children. Teachers must be at the center of those efforts.
    We are also investing in principals to create better 
instructional leaders so that teachers will have the leadership 
they need to do better work. Historically, I think our 
Department has underinvested in principal leadership, and we 
are looking to dramatically change that. Good principals, as we 
know, recruit to retain great talent. Bad principals run off 
talent.
    As for teacher evaluation systems, our goal is a system 
that is fair, honest, and useful, and built around a definition 
of teacher effectiveness, developed with teachers, that 
includes multiple measures, never just a single test score.
    Teachers need great principals for support, and we will 
also ask for fair evaluation systems for principals. We want to 
use these systems to support teachers in their instructional 
practice and to reward great teachers for all they do, 
including advancing student learning. We also want to reward 
them for working in the high-needs schools. If we are serious 
about closing the achievement gap, we must close the 
opportunity gap our children all too often face.
    As I mentioned, we will change the accountability system to 
make it fairer. For the first time, we will be holding not just 
schools and teachers accountable for student success, but 
districts and States as well. This must be a shared 
responsibility. Teachers can't teach and principals can't lead 
where they are not well-supported at the local and State level.
    We want to stop mislabeling thousands of schools as 
failures. Instead, we want to challenge them to close 
achievement gaps with targeted strategies designed by teachers 
and principals together. Similarly, everyone should get credit 
for helping students who are behind catch up, even if they do 
not yet meet standards.
    A sixth grade teacher whose students start the year three 
grade levels behind and their students advance by two grade 
levels should be applauded, not labeled as a failure. That 
teacher is not a failure. That teacher is not a good teacher, 
that teacher is a great teacher. She is accelerating student 
learning and we must learn from her example, not stigmatize 
her. The same is true for districts and States as well.
    We want to give many more schools and districts the 
flexibility to improve by focusing much more on the chronically 
lowest performing schools and those with the largest 
achievement gaps that aren't closing, while giving teachers and 
principals of the other schools more flexibility and incentives 
to succeed.
    We are also calling for assessments that measure deep 
learning, not test-taking skills, assessments that can engage 
and encourage learning and provide teachers with meaningful, 
quick feedback. And we want students, parents, teachers, and 
communities working toward a meaningful bar and support them in 
getting there.
    The goal of the K-12 system has to be to prepare students 
for the next step on their journey: college and a career. The 
system needs to be focused on that goal. Dumbed down standards 
mean we are lying to children, giving them false hope, and 
undermining the high standards that teachers have for their 
students. That must end.
    We are calling for over $1 billion to fund a complete 
education, because a whole child is a successful adult. We want 
schools investing in the arts, history, science, languages, and 
all of the learning experiences that contribute to a well-
rounded education. This is critically important.
    Finally, we are seeking $1.8 billion to support students by 
encouraging community engagement and support and exposure to 
other positive adults. Teachers cannot do it alone. They need 
parents, community leaders, social service agencies, and other 
supportive adults in the school helping to reinforce a culture 
of learning and respect. A parent is always a child's first 
teacher and will always be their most important teacher.
    I also want to say that ESEA reauthorization provides us 
with the opportunity to promote early learning programs from 
birth through third grade. We need to ensure that children 
attend high-quality early learning programs to sustain 
achievements.
    At the Federal level, we can encourage the alignment of 
standards and assessments across early learning programs in 
schools. We can coordinate professional development efforts. We 
can engage families in their children's learning. It is time to 
learn from the success of high-quality programs. As the 
President has pointed out, that pipeline will never work 
properly unless the road to college begins at birth.
    Thank you for the opportunity to discuss our comprehensive 
reform of ESEA. This will be one of the most dramatic changes 
in the law's history. It will fundamentally change the Federal 
role in education. We want to move from being a compliance 
monitor to being an engine of innovation.
    The urgency of these reforms has never been greater. Our 
children and our future are at risk. So let's together do the 
difficult but necessary things our schools demand and our 
children deserve.
    We know that schools can transform the lives of children. 
We have literally thousands of examples of schools serving 
high-poverty populations that are accelerating student 
achievement. We need to reward them and hold them up as 
examples for others to follow.
    I thank you for all you have done and all you will do to 
make education America's highest priority and greatest legacy. 
We need to work together to continue that legacy and deliver a 
world-class education for every child.
    Thank you so much.
    Chairman Miller. Thank you. Thank you very much for your 
testimony.
    [The statement of Secretary Duncan follows:]

           Prepared Statement of Hon. Arne Duncan, Secretary,
                      U.S. Department of Education

    Thank you, Chairman Miller, Ranking Member Kline, and Members of 
the Committee for inviting me to testify today on the Obama 
Administration's Blueprint for reauthorization of the Elementary and 
Secondary Education Act of 1965. Today, more than ever, a world-class 
education is necessary for success. The President and I believe 
strongly that this Blueprint provides a way for America to strengthen 
the schools that our children attend and prepare the children who will 
be the architects of our continued greatness to assume that role.
    This blueprint builds on the significant reforms already made in 
response to the American Recovery and Reinvestment Act of 2009 around 
four areas: (1) Improving teacher and principal effectiveness to ensure 
that every classroom has a great teacher and every school has a great 
leader; (2) Providing information to families to help them evaluate and 
improve their children's schools, and to educators to help them improve 
their students' learning; (3) Implementing college- and career-ready 
standards and developing improved assessments aligned with those 
standards; and (4) Improving student learning and achievement in 
America's lowest-performing schools by providing intensive support and 
effective interventions.
    Incorporating and extending this framework, this blueprint for a 
re-envisioned federal role builds on these key priorities:
(1) College- and Career-Ready Students
    Raising standards for all students. We will set a clear goal: Every 
student should graduate from high school ready for college and a 
career, regardless of their income, race, ethnic or language 
background, or disability status. Following the lead of the nation's 
governors, we're calling on all states to develop and adopt standards 
in English language arts and mathematics that build toward college- and 
career-readiness by the time students graduate from high school. States 
may choose to upgrade their existing standards or work together with 
other states to develop and adopt common, state-developed standards.
    Better assessments. We will support the development and use of a 
new generation of assessments that are aligned with college- and 
career-ready standards, to better determine whether students have 
acquired the skills they need for success. New assessment systems will 
better capture higher-order skills, provide more accurate measures of 
student growth, and better inform classroom instruction to respond to 
academic needs.
    A complete education. Students need a well-rounded education to 
contribute as citizens in our democracy and to thrive in a global 
economy--from literacy to mathematics, science, and technology to 
history, civics, foreign languages, the arts, financial literacy, and 
other subjects. We will support states, districts, school leaders, and 
teachers in implementing a more complete education through improved 
professional development and evidence-based instructional models and 
supports.
(2) Great Teachers and Leaders in Every School
    Effective teachers and principals. We will elevate the teaching 
profession to focus on recognizing, encouraging, and rewarding 
excellence. We are calling on states and districts to develop and 
implement systems of teacher and principal evaluation and support, and 
to identify effective and highly effective teachers and principals on 
the basis of student growth and other factors. These systems will 
inform professional development and help teachers and principals 
improve student learning. In addition, a new program will support 
ambitious efforts to recruit, place, reward, retain, and promote 
effective teachers and principals and enhance the profession of 
teaching.
    Our best teachers and leaders where they are needed most. Our 
proposal will provide funds to states and districts to develop and 
support effective teachers and leaders, with a focus on improving the 
effectiveness of teachers and leaders in high-need schools. We will 
call on states and districts to track equitable access to effective 
teachers and principals, and where needed, take steps to improve access 
to effective educators for students in high-poverty, high-minority 
schools.
    Strengthening teacher and leader preparation and recruitment. We 
need more effective pathways and practices for preparing, placing, and 
supporting beginning teachers and principals in high-need schools. 
States will monitor the effectiveness of their traditional and 
alternative preparation programs, and we will invest in programs whose 
graduates are succeeding in the classroom, based on student growth and 
other factors.
(3) Equity and Opportunity for All Students
    Rigorous and fair accountability for all levels. All students will 
be included in an accountability system that builds on college- and 
career-ready standards, rewards progress and success, and requires 
rigorous interventions in the lowest-performing schools. We will 
celebrate the Reward states, districts, and schools that do the most to 
improve outcomes for their students and to close achievement gaps, as 
well as those who are on the path to have all students graduating or on 
track to graduate ready for college and a career by 2020. All schools 
will be aiming to do their part to help us reach that ambitious goal, 
and for most schools, leaders at the state, district, and school level 
will enjoy broad flexibility to determine how to get there.
    But in the lowest-performing schools that have not made progress 
over time, we will ask for dramatic change. To ensure that 
responsibility for improving student outcomes no longer falls solely at 
the door of schools, we will also promote accountability for states and 
districts that are not providing their schools, principals, and 
teachers with the support they need to succeed.
    Meeting the needs of diverse learners. Schools must support all 
students, including by providing appropriate instruction and access to 
a challenging curriculum along with additional supports and attention 
where needed. From English Learners and students with disabilities to 
Native American students, homeless students, migrant students, rural 
students, and neglected or delinquent students, our proposal will 
continue to support and strengthen programs for these students and 
ensure that schools are helping them meet college- and career-ready 
standards.
    Greater equity. To give every student a fair chance to succeed, and 
give principals and teachers the resources to support student success, 
we will call on school districts and states to take steps to ensure 
equity, by such means as moving toward comparability in resources 
between high- and low-poverty schools.
(4) Raise the Bar and Reward Excellence
    Fostering a Race to the Top. Race to the Top has provided 
incentives for excellence by encouraging state and local leaders to 
work together on ambitious reforms, make tough choices, and develop 
comprehensive plans that change policies and practices to improve 
outcomes for students. We will continue Race to the Top's incentives 
for systemic reforms at the state level and expand the program to 
school districts that are willing to take on bold, comprehensive 
reforms.
    Supporting effective public school choice. We will support the 
expansion of high-performing public charter schools and other 
autonomous public schools, and support local communities as they expand 
public school choice options for students within and across school 
districts.
    Promoting a culture of college readiness and success. Access to a 
challenging high school curriculum has a greater impact on whether a 
student will earn a 4-year college degree than his or her high school 
test scores, class rank, or grades. We will increase access to college-
level, dual credit, and other accelerated courses in high-need schools 
and support college-going strategies and models that will help students 
succeed.
(5) Promote Innovation and Continuous Improvement
    Fostering innovation and accelerating success. The Investing in 
Innovation Fund will support local and nonprofit leaders as they 
develop and scale up programs that have demonstrated success, and 
discover the next generation of innovative solutions.
    Supporting, recognizing, and rewarding local innovations. Our 
proposal will encourage and support local innovation by creating fewer, 
larger, more flexible funding streams around areas integral to student 
success, giving states and districts flexibility to focus on local 
needs. New competitive funding streams will provide greater 
flexibility, reward results, and ensure that federal funds are used 
wisely. At the same time, districts will have fewer restrictions on 
blending funds from different categories with less red tape.
    Supporting student success. Tackling persistent achievement gaps 
requires public agencies, community organizations, and families to 
share responsibility for improving outcomes for students. We will 
prioritize programs that include a comprehensive redesign of the school 
day, week, or year, that promote schools as the center of their 
communities, or that partner with community organizations. Our proposal 
will invest in new models that keep students safe, supported, and 
healthy both in and out of school, and that support strategies to 
better engage families and community members in their children's 
education.
    I look forward to working with the Members of this Committee on a 
bipartisan basis to complete this critical work, and I would be happy 
to answer any questions that you have. Thank you.
                                 ______
                                 
    Chairman Miller. Under a previous agreement, the Chair and 
the Ranking Member will be recognized for 10 minutes apiece.
    Mr. Secretary, the blueprint that you have released and you 
are discussing with us today has received a lot of mixed 
attention from media and stakeholders. I would like to take a 
moment to refocus that conversation, as Congressman Kline said, 
on the needs of the students, and especially in my case of poor 
children and those suffering in schools with wide achievement 
gaps.
    I have been at this for some 30 years. We can't afford to 
lose yet another generation of students, and we can't wait to 
eradicate poverty before we take the action we need on behalf 
of our Nation's children.
    Ten years ago, with No Child Left Behind, we began the 
process of shining the light on the achievement of all 
children, no matter what schools they were in, no matter what 
their social-economic status was, and it was about the idea 
that they are all entitled to a world-class educational 
opportunity. I would like to make sure that we don't lose that 
focus.
    I agree with your criticisms. I think you raised important 
issues about No Child Left Behind. But I just wonder if we 
might elaborate a little bit on the proposals, how your 
proposals really create a system that addresses the needs of 
students, particularly those who are most disadvantaged and 
find themselves locked into schools that, as my State just 
published, more or less year after year are failing to provide 
the opportunity for those kids to take the advantage of.
    Secretary Duncan. Thank you, Mr. Chairman.
    I put the schools into three broad categories. There is a 
set of schools in every State and every district--take the top 
10 percent of schools that are absolutely world-class, where 
students are learning and growing and achievement gaps are 
shrinking, and we should be holding those schools up as 
examples. We should be giving them more flexibility, learning 
from them, and, frankly, getting out of their way.
    There is a set of schools that may not be world-class yet, 
but they are improving every single year, and we need to 
continue to support their development and their growth.
    But what I will argue is, as a country, we need to take the 
bottom 5 percent of schools, not the 95 percent but the bottom 
5 percent, and even take one of those 5 percent each year for 
the next 5 years and let's do something dramatically different.
    The status quo is not working. We have not seen the kind of 
progress we need. We have far too many examples of success in 
high-poverty, high-minority communities, for anybody to say 
that poverty is destiny. It is not. We have schools routinely 
beating the odds. And we are simply not working for children. 
Where there are 50, 60, 70 percent dropout rates, where 
students are falling further and further behind, despite our 
best intentions, despite our best work, we are perpetuating 
poverty and we are perpetuating social failure.
    So what we are saying is we need to come in, let's move 
with a real sense of urgency, and let's get those children a 
better chance at an education, and let's do it now.
    Chairman Miller. I assume I am correct in understanding 
that for those students in large mixed districts, like I 
represent, those students who may be in a relatively good 
school but they are not doing terribly well themselves, we are 
not going to lose them in this new arrangement. They do not 
need to be in one of the worst performing schools before they 
get attention or they continue to be tracked in terms of 
whether they are growing toward the goal of being college- or 
career-ready.
    Secretary Duncan. That is exactly right. And we are 
actually trying to do something that I don't think happened 
enough in the previous law. That if you take a relatively high 
performing school but where there are huge achievement gaps--
and, again, the big thing for me is progress and growth where 
those achievement gaps aren't shrinking, where they are 
stubbornly large and not moving--we want to make sure that 
those students who are being underserved have an opportunity to 
do better.
    Chairman Miller. Thank you.
    I think one of the more interesting political events in the 
last year has been the impact of Race to the Top on the 
educational political system, if you will. Because of the Race 
to the Top, I think some of us reside in States where we never 
thought that conversation would take place. We never thought 
there would be agreement between the executive and the 
legislature. We never thought there would be agreement between 
the teacher organizations and the boards of education and/or 
within the legislature itself.
    Yet I see, as I mentioned in my opening statement, those 
actions have been taken. They are not exactly as I would do it. 
I think there is more to be done in my own State. But it is a 
dramatic change of attitude. I hope it is a change of attitude. 
It is a dramatic change in the terms of guidance, that the 
system will operate now under the use of data and other 
elements of the Race to the Top.
    The question is: In the model that you are laying out in 
your blueprint, can we transfer that kind of atmospherics, if 
you will, to bring about that kind of cooperation, those kinds 
of conversations, among the various parts of the education 
system? Because I think when we look at models of success, we 
know that it is more than just another 2-year plan that is laid 
on that school or that system. It is really the preparatory 
work that has gone in to get buy-in, to get people to 
participate, to take responsibility across those systems.
    I think a lot of that has begun at one level of the 
educational system with the States. I think now we need to see 
whether or not we can use the blueprint and the law that we 
will be offering here to encourage that and extend that.
    Secretary Duncan. We have been amazed to see the amount of 
progress and momentum due Race to the Top. What is so 
interesting, Chairman Miller, is what I hear repeatedly, is 
although there is a lot of money there, it is really not about 
the level. What has happened, there has been a level of 
conversation, there has been a level of corroboration, there 
have been folks moving outside their comfort zones, and 
movement and the relationships that should have been happening 
for a long time, this has forced those things to happen. So 
that been hugely, hugely encouraging.
    I have folks say, yes, they would absolutely love to get 
the money, but whether or not they do, they are moving forward 
for reform and they are behaving in very, very different ways.
    So whether it is Race to the Top, whether it is in the 
Invest and Innovation Fund, whether it is in other areas where 
we have discretionary resources, we are going to continue to 
reward those States and districts and nonprofits and 
universities and schools that are doing two things; that are 
raising the bar for all students and closing the achievement 
gap. And where we see that movement, we want to put 
unprecedented resources. Where folks are more recalcitrant, we 
will invest in other places. But the amount, the willingness 
and the openness to reform has been unbelievably encouraging.
    Chairman Miller. Well, I look forward to working with you 
on that, because I think that is key to the success here.
    Let me raise another issue, and that is the focusing of 
attention on what you called the 5 percent of the schools that 
are persistently and chronically failing. I think they are 
failing, not just the students are failing, the teachers are 
failing, the whole community, if you will. But, again, I want 
to make sure that we don't substitute a model for critically 
thinking about how you develop success in that particular 
school or those schools within the system and in those 
communities.
    In the blueprint, you lay out four different models: the 
transformation model, the turnaround model, the restart model, 
and the school closure model. My concern would be I think in 
California we have tried almost all of those, and I would like 
to have some data presented on where we have seen the successes 
with those various models, because we have had some, but not 
all of them have happened.
    I would also like to make sure, sort of following on to my 
previous question, that when we consider these models, they 
have got to be more than just lines on the paper, if you will.
    I visited some of your very successful schools in Chicago, 
and I think what you saw there was the development of an 
attitude and expectations and partnerships from parents, the 
community, the teachers, the school boards, and the individual 
boards about the success that they wanted, and they took a lot 
of time bringing people around to that point. Some people left, 
some principals left, some teachers left, and back and forth. 
But then they developed a community that they thought could 
sustain that. And in some of those schools, that has been 
sustained now for almost 10 years.
    My concern is, having witnessed a number of dramatic 
actions where we get 1 or 2 years and then we are back again 
trying something else more dramatic, that we provide the means, 
the tools, the resources for these districts that are making 
these choices, for schools that have to make these choices, to 
really plan out and develop that change in expectations and 
attitudes and competencies that will make that a success, so we 
don't sort of have a continued rollover of these efforts and we 
can bring some stability and ongoing sustainable success.
    So in this discussion, following what you have put forth in 
the blueprint, I am very interested in looking at what are the 
outcomes of these models. Where is it we are going to look for 
success? Where is it school districts would go to see how this 
has been done?
    Some of these have been legend until their efforts to try 
to turn around even systems. But here you are sort of focusing 
on individual schools within systems. That buy-in really has to 
be extraordinary, and I think we have to encourage that buy-in.
    I will sign off with this. One of the remarkable things 
when I visited Roscoe Academy was the community participation 
on an hourly and daily and weekend basis about the importance 
of that school and the success of those kids.
    So feel free to respond. But I just worry that we are not 
just putting outlines and a description of what you would do, 
and that we don't substitute that for critically thinking about 
how those models would be successful and what is evidence of 
their success in the past.
    Secretary Duncan. It is a great point, and this only works 
if everybody steps up. No one gets a pass. Students, teachers, 
parents, principals, the community, everybody has to work 
together. Where you see that sustained success, you had that 
community buy-in.
    So everybody has to work together. These are hard 
conversations. They are tough. I think we have to have them. We 
have to stop sort of sweeping these tough issues under the rug. 
But where folks come together and plan for the long haul and 
sustain that effort, we will and we have seen remarkable 
results.
    Also, while Race to the Top has gotten all of the sort of 
press and publicity. That is $4 billion. We are putting $3.5 
billion in school improvement grants out for just that bottom 5 
percent. So we are trying to put a huge amount of money out 
there, more time for teachers to collaborate, longer school 
days, more time in the summer. We know some of the building 
blocks, so we are trying to put huge amounts of resources out 
there for States, districts, parents, teachers, students 
working together to say we have to do something, and we want to 
meet them more than halfway.
    Chairman Miller. Thank you.
    Congressman Kline.
    Mr. Kline. Thank you, Mr. Chairman. Again, thank you, Mr. 
Secretary, for being here. It has been a pleasure working with 
you as we move forward towards reauthorizing this essential 
legislation.
    Before I get into the blueprint, I want to mention the Race 
to the Top again, that the Chairman has been talking about 
some, and express a couple of concerns I have about the 
transparency. You and I have had this discussion before, but I 
want to see if I can't draw it out here a little bit.
    We have got a peer review process that is going on, and we 
don't know still who the peer reviewers are, and they are 
involved in allocating pretty big piles of money. So it is 
pretty hard for us, the American people, to have confidence in 
this system if we don't know who the peer reviewers are. So I 
am a little troubled about why we can't know who those are.
    Then, secondly, I am a little bit concerned about the 
timing here. We had States put in their requests for this 
money. Some States put it in with sort of high expectations, 
like Minnesota, and didn't make the final cut. We don't know 
why. I understand that at some time coming up, there are going 
to be some comments and information coming forward.
    My question is, why don't we have it now? I know you know, 
Mr. Secretary, I have a letter here from Governor 
Schwarzenegger and I think eight Governors saying, you have got 
to tell us what we didn't do right, because we are busy, these 
States, trying to compete again for the next tranche of this 
money.
    So there is literally over $4 billion here at stake and you 
and the administration are asking for another $1.35 billion 
just for Race to the Top. It seems to me we really have some 
unanswered questions.
    So my question to you is, why can't we know who those 
people are and why can't the States know what they did well and 
what they didn't do well so they can address those things?
    Secretary Duncan. Great questions. What has been paramount 
in our minds from day one was the integrity of this process, 
and due to the size of these grants, unprecedented, we were 
worried about outside influence on potential peer reviewers. 
There is huge temptation for bad things to happen, and we 
wanted to do everything at all costs to prevent that from 
happening.
    So as soon as the competition is done, all that will be put 
out. All the interviews we are doing now with the 16 finalists 
are being videotaped and all of that is going to be absolutely 
transparent.
    What we said at the start of the competition was, the day 
it was finished we would put out every State's comment, they 
will come back, so everyone will get that. We said, again, 
before the competition started, they would get that at the end 
of the competition. If we put it out now, States still in the 
competition could game their answers in the interviews due to 
those responses.
    So when the competition is done, everybody will get all the 
remarks, all the reviews, and there will be an equal amount of 
time between that and when the second application is due, as 
there was at the start of the competition.
    So we try to be very, very fair but maintain integrity.
    Mr. Kline. Okay, if I could interrupt, I am sorry. So you 
are going to start again with a whole new set of peer review 
teams after this first tranche? Are we not to know who these 
people are until next September?
    Secretary Duncan. No, the day this is done you will know 
who they are.
    Mr. Kline. I am sorry, define ``day done.''
    Secretary Duncan. When this competition is completed, we 
will put out the tapes of the interviews, we will put out who 
the peer reviewers are, and we will put out all comments for 
all States publicly.
    Mr. Kline. I am sorry, I guess I am not communicating well 
here. Competition done----
    Secretary Duncan. The first time.
    Mr. Kline. Okay. So now I am back to the question. We are 
going to have this competition done in April, the first part of 
it, and at that point you are going to tell us who the peer 
reviewers are?
    Secretary Duncan. Yes, sir.
    Mr. Kline. Okay. Are they going to be the same peer 
reviewers for the next part, or are you going to start again?
    Secretary Duncan. Some may come back, some may not. To be 
clear, they signed up for the first round. That was all they 
signed up for.
    Mr. Kline. It does help me to understand that. I do think, 
however, it would be very helpful, because the States are 
getting ready to compete again, to know what they didn't do 
well, and the longer that drags out, the harder it is for them.
    Secretary Duncan. Again, let me be clear. We have been very 
consistent from the start that we will put all of that out as 
soon as the first round is done, and the time between that and 
when the second round application is done will be the same 
amount of time, not less time, the same amount of time as we 
had in the first go-around
    Mr. Kline. Thank you. Let me move now to the blueprint. I 
know, Mr. Secretary, you have talked about this an awful lot 
over time, and that is being tight on goals but loose on means.
    It looks to me though--and I understand this is a 
blueprint, not a bill, not legislative language--we will go to 
work on that here shortly. But when you talk about focusing on 
the bottom 5 percent as a way to limit the involvement of the 
Federal Government in most schools, I think I understand that, 
but as I read the blueprint, it looks to me like this Federal--
we will just call it ``heavy-handedness''--intervention, could 
apply to entire districts and even States.
    On page 10 it reads, ``Both challenge districts and States 
will face additional restrictions on the use of ESEA funds and 
may be required to work with an outside organization to improve 
student academic achievement.'' Both challenge districts and 
States.
    A State is in the bottom 5 percent? I guess I am trying to 
understand how that will work.
    Secretary Duncan. Sure. Schools don't operate as islands. 
Every school is impacted by their district and by their State, 
some in extraordinarily positive ways, some in neutral ways, 
some are hurt by their States and districts. What we want to 
do, Congressman, in all this stuff is reward excellence and 
challenge where things aren't working.
    So we think that not only are there thousands of high 
performing schools in this country, we think there are hundreds 
of high performing districts that are routinely showing 
remarkable student achievement, often with children who come 
from very, very tough situations.
    We want to shine a spotlight on those districts, we want to 
give them more flexibility, more resources, learn from them. 
The same is true for States. This has got to be a shared 
responsibility.
    On the flip side of it, if you have 15,000 school 
districts, take the bottom 5 percent of school districts where 
things simply aren't working for the vast majority of students 
in that school district, I think we need to look at what is 
going on there and see what we can do better.
    Mr. Kline. I am just trying to understand. But it looks to 
me like you are directing this at an entire State, and it seems 
to me that that State might be looking for the most flexibility 
to make corrections, not the least.
    I want to move on to something else, and I just want to 
mention it for a second. I have talked to you about this many 
times. I mentioned it again when you came in. I am actually not 
going to ask the question, because I think 90 percent of my 
colleagues here are dying to talk to you about this same issue 
and I want to give them the opportunity to do that.
    But when we have got these core standards that are being 
developed by States, there are an awful lot of questions about 
how that is going to work and what the Federal enforcement tool 
is going to be. I know, for example, that my State of 
Minnesota, said, Wait a minute, I have a problem with these 
standards now, because they are not as high in math as what we 
have and what we would like to have. So if we step outside of 
that and go to our own, it may affect how you, how the 
Department, awards funds.
    So I am asking you not to address that right now, but I 
just want to express the concern and assure you that as we have 
talked before, that certainly in my conference at least there 
are a lot of concerns about that, who is going to adjudicate 
and what is the role of your Department going to be.
    I yield back.
    Chairman Miller. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Secretary, I remain very concerned about the 
administration's charter school proposal, primarily because of 
the fiscal effects it could have on traditional public schools. 
I am concerned that disadvantaged districts, like Flint, 
Michigan, where I live, will be stretched too thin if more 
students move to charter school programs and take their entire 
per-pupil State allocation with them.
    What type of supports would you propose to help those 
districts if we transition to a system that supports 
significant charter school expansion?
    The charter schools really are able to market their schools 
in a way that the public school systems cannot, and very often 
my experience has been that the more sophisticated parents are 
the ones who opt for the charter schools.
    How would you help those schools where the students are 
left behind in the traditional public school system?
    Secretary Duncan. Yes, sir, I have have said repeatedly I 
am not a fan of charter schools, I am a fan of good charter 
schools. We have some charter schools in this country that are 
extraordinarily high-performing options in very, very poor 
communities. We have some charter schools that are just 
mediocre, and we have some charter schools that, frankly, need 
to close. And when I spoke to the National Association of 
Charter Schools, I said exactly those things.
    What we want to do is we just need more good schools in 
this country. So we need more good traditional schools, we need 
more good magnet schools, we need more good Montessori schools, 
and good charter schools are a piece of that solution.
    I think, sir, every school has a chance to market itself 
and to tell its story. Parents are very smart, very 
sophisticated. They are not going to be swayed by some fancy 
marketing material. Every parent is looking for a great option 
for their child. So where families have good options, that is 
fantastic. Where parents don't have good options, we want to 
create some new options for them of every form and fashion.
    So a district like Flint, whether it is strengthening 
existing schools, whether it is creating new schools within the 
district, or through charters, we are wide open to that. 
Charter schools are public schools. They are our tax dollars. 
They are accountable to us. We think they shouldn't receive any 
advantages. We think there shouldn't be any disparities in the 
funding they receive either, though. We just want to play it 
straight.
    Mr. Kildee. We certainly want both good charter schools, if 
we are to have them, and good traditional public schools. But 
the fact of the matter is that parents who are more 
sophisticated, maybe have a better level of education than 
others, are the ones that in fact do tend to choose the charter 
schools.
    What do we do, even though the charter school is a good 
school, what do we do when the other school down the street is 
receiving less dollars because those dollars are going to the 
charter school? The entire State fund goes to the charter 
school.
    Secretary Duncan. So as part of our proposed budget, as you 
know, the President is asking for historic increases in 
funding, and the overwhelming majority of these resources are 
going to to go traditional schools, to those children, to those 
teachers.
    So I can go through line by line. For teachers and leaders, 
$3.6 billion, a 10 percent increase. For well-rounded 
education, $1 billion, 10 percent increase. Student support, 
$1.8 billion, 16 percent increase. Right down the line. So the 
overwhelming majority of our resources, and hopefully new 
resources, if our budget is approved, will go to traditional 
schools.
    There has been lots of conversation, Mr. Kildee, around 
whether charters are getting higher performing kids and more 
engaged families. Obviously, you want to make sure it is a 
level playing field.
    I will point you to a study that was done in the New York 
Public School System, the charter schools, that looked at their 
long waiting lists there for charter schools. It looked at 
students who got into the charters and it looked at kids who 
applied but didn't. So there was no selection bias. Everyone 
was applying.
    What they actually found in that study was that the 
children who actually did get in did better than the children 
who went into the traditional public schools. So they tried to 
sort of account for that, making sure it is apples against 
apples.
    So again, I will just go back. We need more good schools. 
We need to support every school to be successful. And good 
charter schools, not bad ones, not mediocre ones, but good 
charter schools, particularly in historically underserved 
communities, have been a significant piece of the answer.
    Mr. Kildee. You talk about teacher evaluation. How do we 
assure that any teacher evaluation system is, first of all, 
developed in collaboration with the teachers and really 
accurately measure teacher performance?
    For example, I taught Latin for the most part, 90 percent 
Latin, and my Latin students all got A's or B's. Occasionally I 
would grab an American history class, and no matter how hard I 
tried, and I knew history as well as I did Latin, those 
students were getting C's for the most part. So the teacher 
doesn't have much choice over what type of student they 
receive. In my Latin class, they were top students.
    How do we make sure that all these things are measured?
    Secretary Duncan. Well, it is a great point. I will tell 
you when the Chairman talks about we need bold action, we need 
to get dramatically better, one of the things most 
fundamentally broken largely in our country are teacher 
evaluation systems.
    I went to the NEA convention in San Diego and spoke before 
5,500 delegates and talked about teacher evaluation being 
broken, and everybody applauded. I went to the AFT convention, 
2,500 members, and everybody applauded when I talked about 
broken teacher evaluation systems.
    This is one area of the country where we need to get 
dramatically better. There is no perfect system out there. 
These need to develop. I know what doesn't work is what we are 
doing today. Good teachers don't get recognized today. Teachers 
in the middle don't get the support they need. And teachers at 
the bottom who ask for support and mentoring and induction, who 
shouldn't be teaching, they don't get moved out either. So if 
the systems today don't work for any adults, I promise you they 
are not working for the children either.
    So what we have to do, and it has to be collaborative to 
your point, it can only be done with unions and teachers and 
management working together, but we need to get to a whole 
different level of sophistication and thoughtfulness to really 
reward excellence and support those teachers that are trying to 
get better.
    Systems now don't work for any of the adults. Everybody is 
above average. I wish we lived in Lake Woebegon; we don't; 
everybody is superior, and we need to be much more thoughtful 
in it. So I can't promise you we will have a perfect system 
tomorrow. In fact, I will tell you we won't.
    But we need to be working hard in this area. It needs to be 
done at the local level, not by us here in Washington. And we 
need to be encouraging folks to do that, and we are going to 
put a lot of money on the table to incentivize those districts 
that are willing to take this on and be much more thoughtful.
    Chairman Miller. Mr. Hoekstra.
    Mr. Hoekstra. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you and glad that you are here 
today.
    Has the Department done any estimate on what the cost was 
to States and local school districts to implement No Child Left 
Behind over the last 8 years?
    Secretary Duncan. I don't know of that. I don't know of it.
    Mr. Hoekstra. I would think that that would be valuable 
information too, because I will tell you what I am concerned 
about. I read your Blueprint For Reform. It is relatively 
interesting. Then you go through here, and on page 7 it says 
``a new approach.'' You get to page 13 and it says ``a new 
approach.'' A couple more times through the document it talks 
about a new approach.
    It is like wow, here we go again. We had No Child Left 
Behind in 2001 as ``the'' new approach to education in America. 
Now for 8 years we have whipsawed local school districts and 
States to implement No Child Left Behind. Whether you like No 
Child Left Behind or not, after 8 years we maybe have filtered 
down and actually got all the procedures in place and the 
mechanisms in place for No Child Left Behind.
    Now we get a new administration and it is a new approach. I 
can tell you what my local schools are already telling me. It 
is kind of like we just got done with one system--and most of 
them didn't like it--one bad system that has put in a 
tremendous amount of cost and bureaucracy into the process, and 
now we have got, quote-unquote, you geniuses in Washington 
coming up with the next new approach for us. We have got a 
responsibility to educate kids every day, and now we are going 
to have to figure out the new approach.
    They are saying, I wonder what this new approach is going 
to cost us.
    I actually find it almost incomprehensible that we have 
been moving forward for 8 years on No Child Left Behind, and 
you can't tell me what it has cost.
    Can you tell me what this new approach is going to cost in 
terms of mandates to States and local schools, and will this 
administration fully fund the mandate that it is going to put 
on States and schools?
    Secretary Duncan. Sir, let me be very, very clear. This 
blueprint, the ideas didn't come from geniuses in Washington. 
These ideas came from teachers and parents and principals and 
students around this country. The previous law was too 
punitive. It was too prescriptive. It lowered the bar for 
children, and it narrowed the curriculum.
    What we want to do is we want to raise the bar, have 
meaningful standards. We want to reward excellence, we want to 
increase local flexibility, and we want students to have a 
well-rounded curriculum. This is the right thing to do for 
children. It is the right thing to do for adults. There are too 
many perverse incentives.
    Mr. Hoekstra. I was going to say, when you went through No 
Child Left Behind, we went through and I highlighted every time 
it said the State or local school district ``shall,'' ``must,'' 
or ``will.''
    Do you expect that this new authorization will be full of 
the ``school district shall,'' ``the State will,'' ``the State 
must,'' or will there be a tremendous amount of flexibility? 
Because these ideas, you are right, I am glad that they came 
from grassroots. So did No Child Left Behind.
    But what No Child Left Behind did is it went through the 
ideas that came up from the grassroots level, and they said we 
are going to accept some and we are going to leave some by the 
wayside, and then we will tell local school districts that they 
``shall'' or that they ``must.''
    I can tell you, and you know this, that the needs of 
Detroit are very, very different than the needs of Lansing, 
which are very different than the needs of Baldwin, Michigan.
    Will there be a tremendous amount of flexibility, or will 
this be full of the mandates? And if there are mandates, will 
this administration fully fund them?
    Secretary Duncan. One of my four core principles I talked 
about was more local flexibility. We are absolutely committed 
to that. What I think is in all communities, Flint, Detroit, 
you name it, all children should have high expectations. The 
opposite of that happened under No Child Left Behind. Great 
teachers, great principals, great schools, great school 
districts need to be rewarded. There was none of that under No 
Child Left Behind. Fifty ways to fail, no ways to succeed. We 
want to fix that.
    Every child deserves a well-rounded curriculum. Everywhere 
I went, I heard about a narrowing of the curriculum, rural, 
urban suburban.
    So, yes, we want to maintain local flexibility. But there 
are a couple core principles that every child in this country 
needs and deserves, and we are trying to stay true to that.
    Mr. Hoekstra. Maintain local flexibility. I would tell you 
most school districts, and you know this if you have been 
talking to them, don't believe that there is a lot of local 
flexibility left. And I think that for us to restore it, you 
are going to have to make a massive change in the approach.
    I hope that is what we see when we actually get the 
legislative language. We look forward to working with you to 
restore local flexibility instead of Federal mandates.
    Secretary Duncan. I appreciate that. I want to assure you, 
I am not a Washington bureaucrat. I worked on the other side of 
the law for 7\1/2\ years, and I know what works and what 
doesn't.
    Mr. Hoekstra. It is amazing what Washington does to people, 
especially when they get in an agency.
    Thank you very much.
    Chairman Miller. Mr. Payne.
    Mr. Payne. Thank you very much. I want to thank you for 
coming up with a really comprehensive way we can really improve 
our educational system. As we are all aware, we are losing the 
battle worldwide. That means we are losing our edge 
competitively. So I commend you for trying to make this 
educational ship of state work.
    You know, I just wonder, as we talk about the worst 
performing public schools, those are the ones that I 
continually--and I think we have had some conversations, I am 
not opposed to charter schools and all. We know that they tend 
to get more motivated parents, and those parents should not be 
penalized because they are motivated. However, kids can't pick 
their parents, and therefore they are the victims, in a lot of 
instances, of parents that are not motivated. They languish, 
they are behind. So we are concerned about the bottom, working 
from the bottom up. I think that is a great idea.
    But do you have any ideas of how we can incentivize 
teachers to be at those bottom schools? I know we can recreate 
schools, and that is what happened a lot with the charter 
schools. They will get kids that were in failing schools. They 
pick them out, and they therefore tend to perform. As I said, 
the chronically poor and those who have parents who are not as 
motivated, they tend to stay at that same school. I am 
concerned about that school where they stay.
    What are some of the things? Is there any way you can have 
teacher pay incentive, or have some way to have smaller class 
sizes? Could you have additional teachers' aides to work with 
these youngsters that have a whole host of problems when they 
get home? They don't have dinner, they stay up late, they come 
to school tired; the health components, a visiting nurse in the 
school.
    Are there any of these kind of creative things that will 
try to make these failing students, who are failing because of 
the environment, and it is going to be difficult to get these 
failing communities whole, because that is going to take a 
whole new infrastructure, et cetera, et cetera.
    How much can you envision, being at the worst school, to 
try to turn it around?
    Secretary Duncan. Again, I just keep going back. We are 
spending $4 billion in Race to the Top for the entire country. 
We want to spend $3.5 billion on just 5 percent of the schools. 
So we want to make a massive investment. And I want the ideas 
to come from the local community.
    But all of the things you talked about, more time for 
teachers to collaborate and work together, involving the 
community, reducing class size, more time for students, longer 
days, longer weeks, longer years, all of those things are going 
to be absolutely possible, and we are going to be looking for 
good ideas from the communities.
    Again, we have hundreds of these schools around the 
country. I will tell you one that sticks out in my mind is the 
Congressman to your left, Congressman Scott. I went to a school 
in his community, not a charter school, a traditional public 
school, Achievable Dream.
    What is the percent poverty there, Congressman? One hundred 
percent poverty. The entire community is backing it, and what 
you have seen is remarkable. They basically closed the 
achievement gap. Is this work hard? Does it have to be 
comprehensive? Yes. But is it possible? Absolutely. And there 
are now hundreds and hundreds of schools like that around the 
country.
    So it is possible, it is doable, but we have to have the 
courage to do those tough things, and we want to put 
unprecedented resources behind those efforts.
    Mr. Payne. Since we have so many people that want to speak, 
I appreciate that. We have a school in Newark, the Harriet 
Tubman School, that is the same. But the thing about Harriet 
Tubman, it is in the heart of the inner city, but it has been a 
high-performing school for the last 30 or 40 years. I am trying 
to catch a school that has been at the bottom for 30 or 40 and 
see if we can make it like Harriet Tubman. It is a real true 
public school.
    Secretary Duncan. I testified this morning before the 
Senate Health Committee, and Senator Alexander said we spend a 
lot of time trying to catch failure. We need to start catching 
success.
    I think there is lots of success out there that we have not 
been catching, and we want to learn from those successes. So 
that is why I am so optimistic. Despite these challenge, 
despite the sense of urgency, we have never had more high-
performing, high-poverty schools in tough communities, urban, 
rural, suburban. This is happening. What we have to do is take 
these pockets of excellence and take them to scale.
    But, again, the answers are not going to come from 
Washington bureaucrats. The answers are going to come from 
great educators at the local level.
    Chairman Miller. Thank you.
    Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman.
    I am sort of taking this question from what you stated and 
what I have talked to you about before, and you stated before, 
and that is the issue of standards and assessments.
    I understand that the Governors are putting together 
standards, and things will hopefully bubble up from that, and 
somehow we will allow that to become the standard setting, 
which I think is good. There is no question in my mind some 
States have played games with standards and with assessments in 
terms of making their standings look better than perhaps they 
are.
    My question is on the assessments, and that may also tie in 
to your teacher evaluation issue, too. Maybe it does, maybe it 
doesn't.
    What are the plans for assessments? Is that also going to 
come from the States, or is it going to be done as it is today, 
the States can select from various testing standards out there 
and that kind of thing? But what are the plans for that as far 
as this legislation is concerned?
    Secretary Duncan. If I could, Congressman, just to take one 
second on Mr. Kline's question, to be very, very clear on the 
standards, yes, there is a consortium of 48 Governors, 48 State 
school chiefs working together. Again, both unions are 
supporting it. The business community is crying out for this. 
This was the third rail a couple years ago. You couldn't talk 
about this issue.
    Everybody is coming together, saying this is the right 
thing for children. I can give you for the record, Chairman, 
quotes from the head of the union. I can give you quotes from 
Republican Governors, I can give you quotes from the head of 
the U.S. Chamber of Commerce. Everybody is saying this is an 
idea whose time has come.
    If States want to opt-out of that for whatever reason, that 
is fine with us, too. What we want is just to make sure they 
are high standards. So if they work as part of that consortium, 
great. If not, we just want the local University of Minnesota, 
University of Tennessee, whatever it is, to certify if you are 
hitting the standard that a student won't have to take remedial 
classes.
    So you can work as part of that collaborative. So far there 
is huge momentum there. Or if a State chooses to go it alone, 
just have it certified by their local institution of higher 
education and we will be fine with that too. So, again, this is 
driven at the local level. If you guys know this is a Federal 
initiative or this is a national initiative, this dies. The 
leadership has got to come at the local level, and that is what 
is happening. Once you get higher standards, which is where we 
are going, huge progress, you need better assessments, to 
answer your question.
    We were very concerned that due to the tremendous financial 
stress that States and districts are under now, you know, very, 
very tough budget times, the toughest in decades, that folks 
would get to the better standards but would be left with the 
same less-than-optimal assessments.
    So as part of the race to the tomorrow, we carved out $350 
million, and we are going to put that out to States. So, again, 
now it won't be our assessments, it won't be national 
assessments, we are going to put that out to sets of States 
that want to work together to come back with much better 
assessments, much more comprehensive, not just end-of-course, 
end-of-year, but real-time formative data so teachers and 
parents and principals and students can know what their 
strengths and weaknesses are.
    So we think there is a huge opportunity here to get to that 
next generation, and we want to put our resources behind it. 
But the idea is the leadership is going to come at the local 
level.
    Mr. Castle. Okay. Talk to me about the teacher assessment 
situation and the evaluation of the teachers. We all know that 
there are potential union problems here; that is, most unions 
have gotten mandates that you cannot fire a teacher after a 
couple of years, and they are given permanent jobs, et cetera, 
which makes I think evaluation more difficult. Also there is a 
lot of resistance, frankly, to the ability to judge teachers 
that are doing a superior job and should be on a different pay 
scale. These have been opposed by a lot of different States and 
teacher unions.
    I sort of heard you talk about it, but how are we going to 
deal with that? I realize you are trying to rally everybody 
around to it, but it is going to be difficult to do, I think.
    Secretary Duncan. I think things are changing. I think the 
public and maybe everyone here doesn't know how much things 
have changed. One example, Randi Weingarten, who I have 
tremendous respect for, the President of the AFT, gave a speech 
here a couple months ago, 2 months ago. She talked about how 
much better teacher evaluations have to get. She talked about 
rewarding excellence. She talked about not protecting bad 
teachers. There is an openness and willingness.
    Again, I went to both national conferences of unions and 
talked about teacher evaluation being broken. Everybody 
cheered. No one is happy with this. No one is saying the status 
quo is good enough. So the process is so important. As Chairman 
Miller's point, this has to be done in partnership. It can't be 
done top down. It has to be done with teachers, not to 
teachers.
    But no one is saying teacher evaluation works. There are a 
small number of districts, they are doing some wonderfully 
innovative things, management and union working together, 
everybody on the same page. But, again, those are just isolated 
situations.
    So some folks are breaking through, but there is a 
willingness. Again, there is a willingness now that maybe there 
wasn't 3 or 5 or 8 or 10 years ago. It doesn't mean we are 
there yet. A lot of hard work is ahead of us. But am I 
optimistic we can get there? Absolutely. Things are changing in 
a fundamental way.
    Mr. Castle. I am still worried about the give-up of teacher 
tenure after a short period of time, and any kind of 
evaluation, on the basis they are going to evaluate me 
unfairly. I think it is going to be very difficult to get 
there.
    My time is up, so I yield back, Mr. Chairman.
    Chairman Miller. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    You have mentioned the achievement gap several times, and 
it seems to me if you have a chronic situation where African 
Americans in a community are getting a 10th grade education and 
everybody else is getting a 12th grade education, that you have 
essentially violated the civil rights of the minority community 
in violation of Brown v. Board of Education, where you have 
denied the students of the minority race of an equal 
educational opportunity.
    Do you see the achievement gap as a civil rights violation?
    Secretary Duncan. I see education as the civil rights issue 
of our generation, and I see where you have chronic achievement 
gaps that aren't changing. We absolutely have to challenge the 
status quo. We have to make sure--you know, some schools have 
49 AP classes, and some schools have none. Some schools have 
access to dual enrollment college classes, and some have none. 
And we just have to make sure that all children have a chance 
to get a high-quality education.
    Mr. Scott. One of the gaps is in the dropout rates. And in 
a previous discussion I think you acknowledged that a school 
that has a 50 percent dropout rate should not be given, as some 
are now, credit for AYP, because those that remained in school 
did okay while half of them dropped out.
    Secretary Duncan. I talked about perverse incentives under 
NCLB. You just nailed one of them.
    Mr. Scott. We thought we had dealt with that when we passed 
the bill way back when it started, because we worked together 
and required a provision in there that dealt with dropouts so 
you would not have the perverse incentive.
    Unfortunately, we gave everybody the opportunity to make up 
their own numbers, which they did. There is no standardized 
count, there is no standardized goal. You can make up what you 
want, and it essentially has no basis at all, where you can 
achieve AYP with a 50 percent dropout rate.
    Are you working to standardize the ability to accurately 
count and set a goal that people are supposed to achieve?
    Secretary Duncan. We have to, obviously, not just look at 
growth on evaluations but also look at outcomes and outcomes of 
graduation rates. I would say if you have the best third-grade 
test scores in the world but 50 percent of your students are 
dropping out, you are not changing students' lives. So we have 
to look at those rates.
    I am interested not just in 4-year rates, but 5-year rates. 
Again, some of the perverse incentives where students fell 
behind, there wasn't always a push to bring them back into the 
fold. And at the end of the day it doesn't really matter 
whether you graduate in 4 years or 5 years. Three is great, 
four is great, five is great too. We want to make sure students 
have an opportunity to graduate.
    Most importantly, again, it is not just about sticks. We 
want to find those schools that are really driving up 
graduation rates and reward them and learn from what they are 
doing.
    Mr. Scott. One of the problems we had With No Child Left 
Behind, too, in the beginning, was that we do the tests, but 
after you got the results, that was the end of the discussion. 
We didn't do anything. The old farmer's adage that we often 
repeat is that you don't fatten the pig by weighing the pig.
    We would take the test, but then the school would be no 
better equipped to do anything about it than they were before 
they got the rules. What are we actually doing when we find--as 
we go to empower the schools to do a better job?
    Secretary Duncan. Sir, what we want to do more than ever 
before with these discretionary resources, we want to invest in 
what is working. So where districts can show us they are 
closing achievement gaps and raising the bar for all students, 
we want to put a lot more resources behind that and take it to 
scale. When you have one high-performing school in the 
community, why can't that go to two to three to five and share 
those best practices.
    Where things aren't working, we want to challenge the 
status quo very, very hard, but with increased local 
flexibility. We think there is going to be a real flourishing 
of innovation, many more good things happening, and we want to 
reward that success.
    Mr. Scott. Now, do we have a research capability to capture 
all this information and to get it in a form for best practices 
and translate that into replicable strategies?
    Secretary Duncan. We want to work very hard with IES, which 
is sort of a separate entity. But there are so many examples of 
excellence we have not learned from. We want to get much better 
at that. Race to the Top, we are going to do some great things, 
we hope. I am sure we are going to make some mistakes as well. 
We want to learn from that in real time. So having a real 
research arm working hard on this in real time is very 
important to us.
    Mr. Scott. One our challenges is figuring out what a highly 
qualified teacher is. I think you agree you can't read it off a 
resume, and that is how we have done it traditionally. You read 
the resume, and some are highly qualified and some aren't; some 
can teach and some can't.
    What are we doing to ascertain whether or not a teacher is 
actually effective, not just one with the paper qualifications?
    Secretary Duncan. Well, we want to move from highly 
qualified, based upon paper credentials, to highly effective, 
based upon the difference you make in students' lives. To your 
point, you could have four degrees from the fanciest of 
universities, but if your students are not learning, you are 
not a great teacher. And you could have none of those fancy 
degrees and be making extraordinary differences in students' 
lives. So moving from paper credentials to effectiveness is 
exactly where we want to go.
    Mr. Scott. Mr. Chairman, I ask unanimous consent to enter 
into the record another study. I think since the last time we 
talked about the problems that we are having in charter schools 
in segregation, another study has come out which leads to the 
same conclusion. We would like that entered into the record.
    Chairman Miller. Without objection, it will be part of the 
record.
    [The policy brief, ``Schools Without Diversity: Education 
Management Organizations, Charter Schools, and the Demographic 
Stratification of the American School System,'' submitted by 
Mr. Scott, may be accessed at the following Internet address:]

                http://epicpolicy.org/files/EMO-Seg.pdf

                                ------                                

    Chairman Miller. Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    I have two basic questions. One I believe is fairly simple, 
but I am confused as to why we don't do it. Under IDEA, we have 
individual education plans for each special-needs student. Why 
isn't that plan a growth model? In other words, why isn't that 
IEP either adjusted to meet the annual growth goal, or the 
growth goal adjusted to meet the IEP? We have not seemed to 
mesh these two programs.
    Secretary Duncan. We haven't done great growth models for 
lots of students, including students with special needs. So I 
think you are on to something we need to look at very, very 
closely.
    Mr. Souder. Because we are paying a lot of money to develop 
this whole annual plan that doesn't seem to be meshed with the 
measurement of the school, and I think that would be a measure 
breakthrough in a lot of schools.
    Secretary Duncan. It is a great point. Again, when you talk 
about growth and gain, we want to measure like students against 
like students. So students with similar disabilities are 
getting wildly different outcomes. We want to understand why 
that is and, again, what are the best practices. And when those 
students aren't progressing, we want to figure out how we 
challenge that.
    Mr. Souder. Good, because that is part of my next question, 
because Indiana is doing that. I am a little worried and I ask 
for forgiveness from God because this question sounds a little 
like Chairman Miller's question, and that is always dangerous--
--
    Chairman Miller. Be very careful.
    Mr. Souder. In the lower 5 percent schools, I have watched 
for many years, as a staffer and as a Member working with this, 
we have tried many of your four different things. We have tried 
magnet schools, we have tried changing the names of the 
schools, firing the principals, changing the teachers. And your 
list of four seems relatively prescriptive in the sense of two 
of them have replace the principal, one has firing half the 
school, close the school, and two others.
    Now, you are putting additional funds in and you said that 
you are going to try to measure like students with like 
students. But one of the challenges here is why would anyone 
ever choose to teach in one of these schools if they think 
there is a 50 percent chance they are going to be fired? Why 
would a principal go there? How are we assured that the same 
schools that haven't been chronic are going to be measured 
fairly and get improvement?
    Secretary Duncan. Those are great, great questions. And to 
be clear, where you have a principal who has recently arrived 
there, they are not fired. They can actually stay.
    I will say, though, there are no high-performing schools 
without very great principals, and if that principal has been 
there 20 years and nothing has moved, I think honestly you do 
need to make a change there.
    What I will tell you, and this is a really important point, 
that around the country you have heroic teachers and principals 
who desperately want to go to the toughest communities and make 
a difference. In fact, that is why many people go into 
education. What they haven't had is a real opportunity where 
they thought they could make a difference.
    So where you have a critical mass of folks coming together 
and you are creating the right set of opportunities, great 
leadership, more time to collaborate, more time for students, a 
real sense of master teachers helping out, there are phenomenal 
teachers that want to do this.
    Mr. Souder. I agree with that wholeheartedly, and we have 
several schools inside Fort Wayne where teachers actually moved 
to those schools. And your point about the 50 ways to fail and 
under-succeed, that was an excellent point; because in 
measuring student-to-student performance may help or similar 
type schools may help, but the bottom line is some of those 
where they have really put their effort in, they get marginal 
change, even working weekends and so on. And those highly 
motivated teachers didn't move to those schools thinking 50 
percent of them could be fired within a certain number of years 
if they do everything they can, and spend the extra hours. We 
obviously have English learners mixed in with this, all sorts 
of economic changes inside schools.
    Sometimes where we see these great performing schools, we 
see there has been a student mix that has changed. They are all 
of a sudden getting a neighborhood change. It isn't just that 
it was suddenly some miraculous--they used some language 
program and they turned around. It does require the committed 
principals and teachers, I agree with that.
    Secretary Duncan. And to Chairman Miller's point, it 
requires the whole community. I will tell you, as hard as this 
is, as difficult, I have been to school after school around 
this country in a relatively short period of time. I was in one 
school that had the second most violent incidents in its city. 
Two years later, there was basically no violence, nothing going 
on.
    There are schools where in the first year, maybe test 
scores don't skyrocket, but there are schools in which student 
attendance increases 12 percent. Twelve percent may not sound 
like a lot. Twelve percent on a 180-day school year is about 
another month of school that students are choosing to come to 
school.
    So there are all kinds of indicators we can look at where 
adults are in there, working extraordinarily hard. This is the 
toughest work in America today, and I would argue it is the 
most important. And we need to, again community by community, 
find those folks, create an environment where they have a 
chance to be successful, reward success, give them the time, 
learn this won't happen perfectly everywhere.
    But when you see students one year to the next going to 
school a month more, something good is going on. When you see 
violence disappear, something is happening.
    Mr. Souder. I visited a school in New Orleans, right after 
Katrina, where only two students failed No Child Left Behind, 
even though it was 100 percent poverty.
    I know it can be done. And part of the question is--and I 
would like to see the sustainability of those.
    Secretary Duncan. Yes. We have to stay the course.
    Chairman Miller. It is the intention of the Chair to return 
after these votes. I am going to try to recognize Ms. Woolsey 
and Mr. Ehlers, if they are willing to stay here, and then if 
they have their track shoes on--I am sorry, Ms. Biggert. I will 
go to Ms. Woolsey, Ms. Biggert, and then run to make the votes 
and be back after the votes.
    Ms. Woolsey. Thank you very much. Thank you, Mr. Secretary. 
It is wonderful to see you.
    No Child Left Behind sounded very similar, different words, 
absolutely a different group presenting it to us, and No Child 
Left Behind turned out to be punitive instead of helpful. So I 
hate to sound like Mr. Hoekstra----
    Chairman Miller. Look, you are bringing us together in a 
way we never imagined. This is unprecedented in this community 
over the last decade.
    Ms. Woolsey. But I really worry that we have got a new team 
in town, we have got a new White House, a new Secretary; so now 
we have to do a new something, but it won't be that different. 
So I will know it is different if we actually invest in the 
kids that need the help the most.
    So what I want to know is: Is there an amount in the budget 
that will be targeted to ensure that students are ready to 
learn when they enter the classroom? Because to bring those 
failing kids, the sick kids, the hungry kids, the worried 
child, is going to be costly.
    Are we going to make that investment, or are we going to 
expect the teacher to bridge that gap, hold that teacher 
accountable for something that is impossible? Because you 
cannot build a workable product if the parts are broken.
    So, Mr. Secretary, my question is: How much--or are we 
willing to spend more money on those kids than on my 
grandchildren, who are well-adjusted, well-fed, happy kids 
going to school. Ready to learn?
    Secretary Duncan. A great question. Let me be very, very 
clear. If a child is hungry, he or she cannot learn. If a child 
is scared, either in school or going to and from school, that 
child can't learn. If a child can't see the blackboard, that 
child can't learn. There is a series of physical and emotional, 
psychological supports that we have to put in place.
    We have six large buckets of funding. One is student 
supports, $1.8 billion, a $245 million increase, a 16 percent 
increase. This is to extend after-school programs, extended 
day, extended year. This is to create neighborhoods that are 
safe and students that are safe. This is a huge investment, 
$200 million to replicate Jeffrey Canada's work in the Harlem 
Children's Zone, not just schools but entire communities around 
schools, to make sure students have a chance to be successful.
    So we want to put unprecedented resources behind the effort 
to give students a chance to think about algebra and to think 
about biology and to think about going to college. If you are 
not hitting those emotional and physical needs first, we are 
kidding ourselves.
    So, yes, to answer your question, we are going to put a 
huge amount of resources, not behind every child, but behind 
those children and communities with the greatest needs to give 
them a chance to be successful academically.
    Ms. Woolsey. Okay. Thank you.
    Chairman Miller. The gentlewoman yields back her time.
    Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. It is nice to see 
you again here so soon, Mr. Secretary.
    On page 16, you somewhere have got a teacher and leader 
innovation fund, and I am not quite sure how that all fits in. 
Does this mean that the blueprint requires a statewide 
definition of effective teachers and principals that is based 
in quite a large part on student academic growth? I know we 
both agree that the student achievement measure must be 
improved.
    But is this an assessment competition designed to have a 
few States develop a new model assessment, and does that mean 
that other States, until this happens, that they will be still 
under the old test?
    Secretary Duncan. We think States can provide some 
parameters, but we think this is best done and can only be done 
at the local level. So local school leaders, unions, teachers, 
management boards, working together at the local level. And 
again, I think nothing is more important than great teachers 
and great principals. We have $3.86 billion in our proposed 
budget. That is a $350 million increase. So we want to work 
with those States and districts who want to do something 
better.
    One of the things I want to say, Mr. Chairman, is that we 
have spent a lot of money on evaluation systems, on 
professional development, billions of dollars a year, with 
very, very little to show for it. So we want to work with those 
places willing to challenge the status quo and get dramatically 
better. This is a place where we have a long, long way to go as 
a country.
    Mrs. Biggert. Okay. But in the meantime, will the teacher 
effectiveness determinations be made using the existing 
standardized tests?
    Secretary Duncan. There are different ways to do it. We are 
moving towards this next generation of assessments. You can use 
existing assessments. Some of those aren't very strong. So you 
don't have to just look at the test results. You can look in 
every State; you have different categories of students, 
students below basic, basic, above or advanced. So you can look 
at the movement of students between those different categories.
    These systems are not perfect. We are in a period of 
transition. There are different ways to do it. But at the end 
of the day, we want to get to a better system as quickly as we 
can. In the interim, there are ways to measure progress and 
growth.
    Mrs. Biggert. Just another quick question. When does your 
Department plan to announce new data on the number of homeless 
students in the United States? I have really always been 
concerned about the homeless students. I have heard that it may 
now be over 1 million.
    Secretary Duncan. Yes. I don't know the date. I will get 
you that. I will tell you one change that we are making. 
Historically, Title I dollars cannot be used for transportation 
for homeless students, and we are creating flexibility in our 
plan, our proposed plan, so that homeless children would have 
access to transportation.
    Mrs. Biggert. One thing that I am concerned with, and it 
has to do with HUD, because they are working to change the 
homeless definition, and it really does depend on what the 
Education Department says is the number of homeless. That would 
really be helpful, if you have that number.
    Secretary Duncan. I will check that data and give it back 
to you.
    Mrs. Biggert. I yield back.
    Chairman Miller. I yield to Mr. Hinojosa. We have 3 minutes 
left. If you want to take your 3 minutes now, you are welcome 
to.
    Mr. Hinojosa. I will gladly take it, and I will come back 
for a second round.
    Chairman Miller. You will take your 3 minutes now and I 
think that will be it. But go ahead.
    Mr. Hinojosa. I want to ask two questions, Mr. Secretary. 
How do you propose to support high-need schools, we often at 
times call dropout factories, in both urban and rural areas 
through the reauthorization of ESEA? And in that response, 
please include how the Blueprint for Reform improves middle 
schools so that we can stop the high dropouts which occur in 
grades 7, 8 and 9?
    Secretary Duncan. On the middle school piece, all of the 
reforms we are talking about--better teachers and leaders, 
well-rounded education, again, not just reading and math, but 
science and social studies and the arts, all those things, 
better student support--will impact and help middle schools to 
become stronger. Again, looking at growth and gain in how much 
students are improving, we think is going to be very, very 
important.
    For those schools that have chronically underperformed, we 
have the school improvement grants, which is a $3.5 billion 
investment in those schools.
    Mr. Hinojosa. Can you see that middle schools get a greater 
amount than they have been receiving the last decade? Because 
when I have feedback in middle schools, they always compare how 
little they get versus the elementary and versus the high 
school. So that needs some specificity.
    Secretary Duncan. One thing--this is not quite answering 
your question directly--but one of the things which always 
concerns me is high schools like to point their fingers to 
middle schools, and middle schools to elementary schools and 
right down the line. What we are really asking is for 
communities to come together behind their children, everyone 
rally behind.
    That is one of the things that has been so appealing to me 
about the Harlem Childrens' Zone, is those aren't somebody 
else's children. Every child there is our child, and everybody 
is working together behind. So what we want to get out of is 
this finger pointing and blame game and get entire communities 
rallying behind children. And obviously middle schools are a 
hugely important piece of that pipeline, that equation.
    Mr. Hinojosa. My second question to you is the ESEA 
blueprint calls for identifying and developing effective 
teachers and leaders. How will you encourage and support States 
and districts in recruiting bilingual teachers and principals 
to better meet the needs of English language learners and 
diverse student populations?
    Secretary Duncan. We want to put unprecedented resources 
behind better teacher recruitment, including bilingual teachers 
and principals. I have said repeatedly, I think our Department 
has significantly underinvested in principal leadership, and 
that is huge, and we are asking for a fivefold increase there.
    As we have an increasingly diverse student population, I 
want the adults in front of those students to reflect the 
diversity of our country, and I would worry about the growing 
imbalance between our students and the adults there. So making 
sure we have great representation, whether it is bilingual or 
teachers and principals who have an ELL background. Thelma 
Melndez, who is in charge of our K-12 education was an ELL 
student who faced low expectations and this was a real personal 
battle.
    I worry about the lack of men. I think most teachers around 
this country, 2 percent of teachers are African American males, 
1.5 percent are Hispanic males, so 3.5 percent males from the 
Hispanic and African American community. Something is wrong 
with that picture and we have to do better.
    Mr. Hinojosa. We will return.
    Chairman Miller. We will recess.
    [Recess.]
    Chairman Miller. The committee will reconvene.
    Thank you, Mr. Secretary. Our apologies for the vote in the 
middle of your appearance here.
    My understanding is you are going to leave at about 5:20. 
So Mr. Tierney is recognized next, and then I think Mr. Petri.
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for this endurance contest; I 
appreciate it, being in the Senate this morning and here today. 
It is a little bit like basketball practice, right?
    Can you cite any evidence for a State like Massachusetts, 
which is the highest rate of proficiency, that the top-down 
imposition of improvement models that are supposed to be used 
on so-called underperforming schools actually have led to any 
success anywhere?
    Secretary Duncan. In Massachusetts?
    Mr. Tierney. Well, in Massachusetts first, but then 
generally otherwise.
    Secretary Duncan. There are a number of high-performing 
turnaround schools around the country.
    Mr. Tierney. That has used one of our four models that you 
cite?
    Secretary Duncan. Yes, sir.
    Mr. Tierney. And all of them have been shown to give some 
success?
    Secretary Duncan. I think there are examples of success and 
examples where there hasn't been perfect success. But, yes, 
there has been success. Nothing is 100 percent.
    Mr. Tierney. All right. But if each of those four models 
have shown to be successful so that you have included them on 
here as something that will help failing schools, then let me 
ask you what your reasoning is for restricting the number of 
certain models that be used?
    Secretary Duncan. Actually what was said for high-
performing districts, they could come in with a different 
model. So they were given flexibility there.
    Mr. Tierney. A fifth model you are saying?
    Secretary Duncan. Yes. With high-performing districts.
    Mr. Tierney. But of the four, you have restricted the use 
of at least the transformative model. If it has proven to be 
effective, why restrict it? Why not let States and districts 
actually have the flexibility of choosing that and not saying 
that they can only use it for half of the schools?
    Secretary Duncan. That is only for districts with many, 
many schools.
    Mr. Tierney. Well, nine.
    Secretary Duncan. Nine or above.
    Mr. Tierney. Nine is not so many in New York or Chicago. 
Nine is a lot in Boston and Salem.
    Secretary Duncan. What we are trying to guard against is 
under No Child Left Behind, everybody picked ``other'' and 
nothing changed.
    Mr. Tierney. Okay, but this isn't ``other.'' This is one of 
the four you set out and you put it in there because you think 
it is successful. So I assume if the people that proved that, 
they are okay with you. They have proven one of your successful 
models that you are using. So why should somebody else be 
precluded from choosing that one over the other three?
    Secretary Duncan. Again, we think that is a good model. We 
think we need to be doing some other things where there are 
lots of schools.
    Mr. Tierney. Presumably there will be people doing the 
other things. If you are given the four choices, I assume not 
everybody is going to pick that one. But by having some 
arbitrary number, I am a little bit mystified as to what 
purpose that serves.
    Secretary Duncan. We think a lot of people will choose that 
model, and it is a very good model. But we want to see other 
moves as well.
    Mr. Tierney. Well, I don't buy it. I am sorry. I disagree, 
and I think I will probably be working against it. I think the 
transformation model is a very good model. It seems to me it is 
where most people should be going.
    I think that the restart idea is a charter school flak, and 
I look at the evidence from charter schools. There are some 
good ones, like there are good public schools; there are some 
bad ones, like there are some bad public schools. In fact, they 
are bad or worse than our public schools; they are good as or 
no better than. So I don't know why we are driving people in 
that direction. But that is a choice, if people want to take 
it. I suppose it is not a problem. Why you didn't restrict 
that, I don't know. If it did more than half, that would have 
been interesting.
    The turnaround model where you dump off half the teachers 
and the principal, I don't think that is going to be an 
attractive offer for most people, because as Mr. Kildee said 
earlier, you can't blame it on the teachers and the principal 
every time. And to just arbitrarily say you are going to just 
dump half of them doesn't seem to make it.
    The closure model may or may not work. That may be an 
option in some instances.
    So I don't get the rationale and I don't see any evidence 
as a foundation for your decision to limit that transformation 
model where you haven't limited the others.
    Secretary Duncan. Again, what we want to see is in these 
very low-performing schools, again, these are just the bottom 5 
percent in any State, we want to see very aggressive action 
taken, and talent needs to be a piece of that.
    Mr. Tierney. Good. But why not restrict the other three, 
then? You can only use up to half of the transformational 
model; why can't you only do half on the restart, half on the 
restart model, half on the turnaround model, half on the 
closure model?
    Secretary Duncan. Again, we could look to do that. I don't 
think that is necessary. I think most people will be picking 
the transformation model.
    Mr. Tierney. Then you have limited it to half just because 
you think people are going to go for the really good one. You 
want to make them go for one of the less good ones or one of 
the less attractive ones to them.
    Secretary Duncan. What we want to see is a multitude of 
strategies to take on chronic underperformance.
    Mr. Tierney. What I need to ask you to do is provide for 
this committee--and Mr. Chairman, I ask that we do this--all 
the detail you have that the turnaround model has worked 
anywhere and where it hasn't worked; all the detail where the 
restart model has worked and where it hasn't worked; all the 
detail from the closure model, where it has worked and where it 
hasn't worked; and all the detail on the transformative model, 
where it has worked and hasn't worked. And then some data 
behind why you chose these four and how they stack up against 
one another, because I don't think it is going to bear out.
    I don't mind the flexibility of choosing between four, but 
precluding people from choosing the one that looks really, 
really attractive, just on the fact that you want to force some 
people to choose a less attractive one, doesn't seem like a 
model for success.
    Secretary Duncan. Again, we are not saying schools have to 
all do this next year. This is over the next couple years we 
are asking folks to take this every year and take some schools 
and do something dramatically different.
    Mr. Tierney. We are all for doing something, but you are 
precluding one of the somethings.
    Chairman Miller. We will work with the Secretary's Office 
on that.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary. I appreciate your waiting around for the laggards 
here.
    Chairman Miller. If the gentleman will suspend, the 
Secretary will be leaving at 5:20, so to the extent we can get 
the people in the room in the questioning, that will help out. 
Thank you.
    Mr. Ehlers. Okay, I can be fairly brief.
    I first want to tell you I appreciate the blueprint you 
have prepared. I printed it out last Saturday night and read it 
eagerly. And I think it is a very good analysis of what we have 
done and what we should do. I recognize the devil is always in 
the details, but I think it is a good place to start. So thank 
you for doing that.
    I wanted to comment about a couple of things. You raised 
the issue of standards here, and that is generally a 
contentious issue on our side of the aisle, but I think it is 
an issue we have to address. It is not that I want to control 
standards from Washington, but I think what the States have 
done in a cooperative way is very good.
    I think back in my elementary school days, most of the 
members of my class quit school after eighth grade. I grew up 
in a farming community. They thought they had learned 
everything they would ever need to know in farming, but in fact 
it would have been very good for them to continue on to high 
school and study chemistry and mathematics, because, as you 
know, today farms are far different than they were back in 1948 
and farmers today have to be well-educated in the various 
aspects of science.
    I want the standards not just because of science or just 
for science, but I think we owe it to our students today, 
because we have such a mobile society today. As you well know, 
most people move every 4 years or so. And it is easily possible 
for a family to move over the Christmas holiday, let's say, and 
the student may have studied a certain subject, particularly in 
math, which is sequential, or the sciences, which is 
sequential, and they may have studied it in the fall semester 
and they are transferred to another school that offers the same 
subject in the spring semester, and the student misses out on 
the course that would have been taught in his old school in the 
spring semester.
    This is a major problem when you are talking about moving 
every 4 years. A lot of kids just get left in the cold. And if 
we wonder why so many Americans don't understand fractions or 
percentages or a lot of other things, that is one of the causes 
of it.
    So I am not concerned quite as much about the standards in 
terms of what is taught or the quality that is taught, but the 
sequential nature of courses. It is crucial for science and 
mathematics, and I hope that everyone on this committee will 
appreciate that that is a really serious problem.
    If we are serious about catching up and, in fact, exceeding 
what the Chinese and Indians are doing lately, as well as some 
30 other nations, we have to look at that very seriously. Most 
of those nations that are doing better than us do have a 
standardized curriculum. That doesn't mean they set standards 
nationally, but they have the curriculum nationalized, so you 
avoid the sequential problem and also can help make sure the 
students get the courses they are going to need.
    So I wanted to get that in the record, but also hear any 
comments you might have about that and ways that we can address 
it, while at the same time taking into account the concerns of 
my colleagues who are very worried about establishing a 
national standard.
    Secretary Duncan. I just think this is happening at the 
right time for the right reasons, and the leadership in the 
right place, which is the local level. And, again, this has 
been bipartisan; Republican Governors, Democratic Governors, 
union, business community, Chamber of Commerce, everyone 
working together.
    So I think making sure that those courses are linked 
sequentially, and, again, at the end of the day, they are high 
bar. Everyone is working hard together now. We are not done 
yet, but I am very, very encouraged. I think this is a 
fundamental breakthrough for our country.
    Mr. Ehlers. I agree. I am glad States have done this, 
working together in that way--that is the ideal way, and leave 
us out of it. Even though I introduced a bill to provide 
tentative national standards, I am delighted if the bill is not 
necessary. I suspect that just introducing the bill probably 
instigated action on the part of the States to avoid the 
Congress setting standards. So I think we are going in the 
right direction.
    With that, I yield back, Mr. Chairman.
    Chairman Miller. I would just say that I think on the 
common standards, I think Professor William Schmidt, who is 
actually from Michigan, I believe, who raised this whole issue, 
and I think the standards reflect this idea of sequencing. It 
is something we haven't done. We jump around a lot, and 
certainly in the beginning study of mathematics.
    Mr. Ehlers. He has done a marvelous job, and I have 
discussed it with him many times.
    Chairman Miller. Ms. Davis.
    Mrs. Davis. Thank you very much, Mr. Chairman.
    Chairman Miller. We have about 8 minutes left, folks.
    Mrs. Davis. Good to see you, Mr. Secretary.
    Just a comment on the common standards. I think that there 
are a lot of things in place, certainly the States' efforts, 
your efforts, the President's efforts. I think I am still 
looking for a Sputnik-like moment.
    Is that something that you feel as well; that while there 
is all this attention, you don't sense that urgency really in 
the country as a whole? And I am not sure whether that is good 
or bad. I mean, maybe it is okay that this really does have to 
be thoroughly grassroots in the sense of coming through locals. 
But I just wonder whether you have that sense, and where is 
that effort missing? Is it missing in the business community?
    Secretary Duncan. I think, frankly, as a country we have 
lacked a sense of urgency, so we feel huge urgency. I feel it 
every single day, and I think you are seeing more and more 
people around the country. But, yes, we have to get 
dramatically better and we have to do it as fast as we can. And 
we are losing competitive advantage by every way you measure. 
And if you are serious about educating your way to a better 
economy, we have got to get better now.
    Mrs. Davis. I wanted to focus for a second on the 
evaluations. I am very pleased you are doing that. I worked at 
the State level as well in teacher evaluations.
    How do we really work with what we might call the lowest 
performing schools now, to have some assurances that they are 
actually taking the time to develop those evaluations or using 
ones that are out there? There must be several different plans 
that schools have been using that are best practices. How do we 
disseminate that in such a way that it doesn't become top-down?
    Secretary Duncan. There are plenty of good models out 
there. When I was in Chicago, we used the TAP model, the 
Teacher Advancement Project. It was jointly worked on at the 
national level with the AFT and with folks actually from the 
Milken Foundation. We thought it was very, very strong.
    To me, the evaluation piece shouldn't be done at the 
school. It really has got to be at the district level, because 
we don't want 95,000 schools doing their own evaluations. But 
districts should be working together. There are good models out 
there and, again, we want to put money behind places willing to 
do more of that.
    Mrs. Davis. Is there an accountability piece in there so 
that schools that don't develop them or they are not going, 
really, beyond what exists today--what do you?
    Secretary Duncan. We are going to try to push hard. Again, 
to me, it is not just up to individual schools. Districts have 
to provide leadership; management, unions, working together; 
teachers, stakeholders working together have to create that 
framework at the district level, and the schools need to 
implement.
    Chairman Miller. The Secretary is going to leave here, he 
has to be somewhere else at 5:30.
    Mr. Guthrie. If you can limit yourself, we can just quickly 
jump through the members here. I apologize.
    Mr. Guthrie. I had a couple of questions, but we will talk 
again. Thank you so much. I have enjoyed your attitude and the 
way you are progressing on this. Hopefully we will have a good 
solution by the end of the year. I had a couple of others 
questions, but I will just keep it to this.
    We had some discussion earlier about charter schools and 
the good students are seen as students picking to leave charter 
schools and leaving, I guess, the parents who aren't as 
motivated on their children or aren't as sophisticated, as was 
talked about, and their children staying in the traditional 
public school.
    How do you think through that issue? There is an issue of 
people leaving charter schools, which I am for, because I think 
the option is leaving a kid in a school that their parent 
doesn't want them to attend or giving them an option to move 
them into a charter school. But what happens to the public 
school? Does it dwindle away, and there are other options? Then 
you talk about autonomous schools, and how is that different 
from a charter school? I will just leave it at that.
    Secretary Duncan. We just need more good schools, and no 
one--if there happens to be a good charter school in the 
community, we need to be working on that neighborhood school as 
well. We just need more choices.
    What I just fundamentally think is that wealthy families in 
our country have had two, three, four great educational options 
for decades, for centuries. Poor families have often had one 
choice, and often that choice wasn't a great one.
    So think about if every family in this country--and this 
obviously works more where there is a denser population--had 
two, three, or four great choices, empowered parents. Let me 
tell you, every parent, it doesn't matter how rich, how poor, 
whatever education background they have, every parent wants the 
best thing for their child, and we need to give parents those 
opportunities.
    Mr. Guthrie. I agree with you. But the autonomous public 
school, you mentioned that in the bill.
    Secretary Duncan. Charters don't have the monopoly on 
innovation, and there are wonderfully innovative traditional 
public schools, and we want to see more schools with 
flexibility and the chance to create a vision. Charters are a 
piece of that answer. Autonomous schools that are part of a 
district that has some freedom and flexibility are also part of 
that answer.
    Mr. Guthrie. Thank you.
    Chairman Miller. Ms. Hirono, 2 minutes.
    Ms. Hirono. Thank you.
    The critical role of teachers, and can good teaching be 
taught? We have talked about this briefly before, The New York 
Times magazine article. What I want to know is are we getting 
to the science of good teaching? Is there something specific in 
the blueprint that gets us to the science of good teaching?
    Secretary Duncan. I don't think we have the science of good 
teaching in the blueprint. What we want to do is invest in 
those places, those districts, those States, those schools of 
education that are doing a great job of accelerating student 
achievement and, by definition, are getting towards that 
science of good teaching.
    So I don't think it is up to us to come up with that 
definition. I think it is our opportunity to invest in places 
that are taking this very, very seriously.
    Ms. Hirono. Is there money in the blueprint for that?
    Secretary Duncan. There is very significant money in the 
blueprint for that, yes.
    Ms. Hirono. Thank you.
    Chairman Miller. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Mr. Secretary, earlier this year you were touting the New 
Haven school contract as a model for collaboration and 
flexibility. And I agree with you in terms of significance and 
the change that was included in that document. What I would say 
is I would challenge you or your staff to come to my office and 
explain to me how the turnaround grants in the models that you 
are proposing square with this contract, because it explicitly 
focused on the issue of turnaround schools, which New Haven, 
you know, the leadership recognized that the change needs to 
happen there. But, frankly, I don't see how what this blueprint 
calls for complies or dovetails with the hard work that people 
did on a collaborative basis.
    Number two, you don't have to answer that right this 
second----
    Secretary Duncan. I will be happy to have that 
conversation. We actually think there is lots common ground, 
but that is a good conversation to have, so we will follow up 
on that.
    Mr. Courtney. The second question: Your work on the 
Recovery Act funding, I think, avoided a blood bath in this 
country in terms of school districts, with the worst economy in 
our lifetime. But, unfortunately, I still don't think we are 
out of the woods yet. Every school superintendent I talked to 
talks about the cliff in 2011.
    I understand the thinking behind the competitive grant 
model in terms of trying to reform the system, but we have an 
economy that is like a patient with a heart attack, and we are 
asking school districts to run a marathon right now with 
resources that are going to really get real scary at the end of 
this calendar year.
    I would just sort of share that with you, that aside from 
the merits of the substance of it, there is a practical 
challenge facing every superintendent in this country, and I am 
not sure this budget really acknowledges that.
    Secretary Duncan. We absolutely share that concern. And 
everywhere I go, we are very concerned about potential cuts. We 
were able to save hundreds of thousands of teaching jobs this 
past year. We worry going to this next year. Obviously, we need 
to do both. We need to maintain that and perform. These 
shouldn't be in conflict. We need to do both at the same time. 
It is a real challenge. I share that concern.
    Chairman Miller. The Chair is going to go to Mr. Petri, and 
Ms. Chu, and then that is it. Two minutes.
    Mr. Petri. I will only take 30 seconds with respect to our 
witness, but just to say that one of the key tensions the No 
Child Left Behind was the way the assessment worked and how it 
was driving decisions in schools and in classrooms. And there 
is a lot that can be done. There is no magic bullet. But 
something like adaptive testing, which is a little more 
flexible and assesses student progress, changing it to ``no 
child shall be ignored'' and not make reasonable progress, 
rather than all get the same schedule, is something we need to 
have a good conversation about. That is it.
    Chairman Miller. Thank you. Ms. Chu, 2 minutes.
    Ms. Chu. Yes. I was a teacher for 20 years, though I taught 
in the community college and not at the K-12 level. 
Nonetheless, I know that after so many years in the classroom 
that there are a range of teachers from great to those that 
need improvement. Clearly those that need improvement require 
greater intervention than which exists now, especially in the 
K-12 classroom, which is a 20-minute evaluation in the back of 
the classroom once a year.
    Now, in your blueprint, the key element seems to be having 
an effective teacher in the classroom. Yet when 74 teachers 
were fired at Central Falls High School in Rhode Island, you 
said that the members of the school board were showing courage 
and doing the right thing for the kids. Are you saying there 
was not even one teacher without any redeeming value?
    Secretary Duncan. That was absolutely not what I was 
saying. And there are some phenomenal teachers there and in 
every school that struggles. You never want to see teachers 
fired. What I was suggesting was that schools like that, that 
have struggled, where there is a 52 percent dropout rate, where 
7 percent of kids are at grade level in their math proficiency. 
Reading was better than that, but math, 93 percent of students 
weren't. We have to work hard together. What actually happened 
subsequent, which I am very pleased about, is the district and 
the union is working together on mediation and we have been 
actively encouraging that. So I think that situation is moving 
in the right direction.
    Ms. Chu. How would you expect teachers to collaborate in 
the process? Because I don't see any area in there for teacher 
input in the blueprint.
    Secretary Duncan. There are huge areas. And getting that 
partnership between teachers and the administrators has to 
happen. And all these things we are talking about, better 
evaluations, better assessments, all of that has to happen with 
cooperation and participation of all parties.
    Ms. Chu. Thank you.
    Chairman Miller. Mr. Secretary, thank you very much for 
your time. I am sorry that we were interrupted in the middle of 
your testimony by the votes. We requested a view on a 
bipartisan, bicameral basis to make this blueprint available 
for us. And it is now our obligation to see if we can reduce 
this to legislative language.
    We look forward to your continued involvement and the 
involvement of your staff, as has already been done from the 
Department with a bipartisan, bicameral working team. And we 
may even bring you back here for an update on all of this. But 
thank you so very, very much for presenting the blueprint, as 
was requested. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. I echo the Chairman's 
comments, so somebody write this down today. And thank you very 
much for your hard work and your attendance.
    Chairman Miller. From Hoekstra to Kline, oh, my God. Oh, 
Souder, too. Jesus.
    Thank you, Mr. Secretary. The committee will stand 
adjourned. And, without objection, all members have 14 days to 
submit materials for this hearing or questions to the 
Department of Education. We will forward them.
    [Questions submitted for the record:]

                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 26, 2010.
Hon. Arne Duncan, Secretary,
U.S. Department of Education, 400 Maryland Avenue SW, Washington, DC.
    Dear Secretary Duncan: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``The Obama Administration's 
Elementary and Secondary Education Act Reauthorization Blueprint,'' on 
March 17, 2010.
    Committee Members have additional questions for which they would 
like written responses from you for the hearing record.
    Representative Raul M. Grijalva (D-AZ) has asked that you respond 
in writing to the following questions:
    1. You mentioned in your testimony that you see the middle grades 
as an integral part of a cradle-to-career education plan, yet I have 
not yet heard anything that acknowledges the unique educational 
situation of middle grades. The middle grades are a fundamental 
transitional point for students, and the dropout crisis will not be 
addressed successfully without addressing the crux of when students 
fall irreparably behind--these are the middle grades and not high 
school. Can you please expand on your testimony by explaining the place 
of middle grades in dropout prevention and college and career 
readiness?
    2. I am pleased to see that both the Blueprint and the Department's 
Fiscal 2011 budget request propose new investments to improve teaching 
and learning in all content areas, including environmental education.
    Former Education Secretary Riley said in a recent statement: If we 
want to have a green-jobs economy, we need to give our young people the 
skills to get the good-paying jobs that will become more and more 
available and attractive in the coming decade. Indeed, environmental 
literacy and education are at the very foundation of a sustainable 
green-jobs economy. We cannot have one without the other. We have an 
urgent need to raise student achievement and expand the academic 
pipeline for STEM-related subjects. Environmental literacy is one sure 
way to engage young people by giving them hands-on experience outside 
the classroom. Environmental literacy is good for the environment, good 
for education and a smart way to grow our economy.
    Do you agree with Secretary Riley's statement? How can we ensure 
that the Department's proposed new investments in environmental 
literacy will get to those students who are most in need of better 
environmental education, specifically the economically and 
educationally disadvantaged students in our urban centers?
    3. The Chairman and CEO of Norfolk Southern Corporation--a Fortune 
300 Company--recently sent you a letter with copies to our Committee, 
urging you to work with the Congress to ensure that the environmental 
literacy plans and programs of the No Child Left Inside Act are 
incorporated into the reauthorization of the Elementary and Secondary 
Education Act.
    He writes in his letter, ``We believe that having an 
environmentally literate workforce is critical to our bottom line and 
the ongoing strength of our company. To be ready for the 21st Century 
workforce and for the transition to a green economy, we believe that 
every student must be prepared with basic environmental knowledge and 
skills and environmental education must begin in our nation's 
elementary and secondary schools.'' I applaud you for including 
environmental education as part of your initiative to help more 
students in high-need schools receive a ``well-rounded education.'' Do 
you agree with the idea that environmental education is also important 
for our students to be college and career-ready? How can we ensure that 
the Department's proposed new investments in environmental education 
will be available to all students so that every student is prepared for 
the green economy?
    Representative Carolyn McCarthy (D-NY) has asked that you respond 
in writing to the following questions:
    The FY11 budget you submitted and the Blueprint creates a new 
``Successful, Safe, and Healthy Students'' program. A number of 
separate programs are combined into this one program, including the 
Safe and Drug Free Schools program. As you know, I am a strong 
proponent of school safety and look forward to continuing to work 
together on these efforts. You and I both know well the effects that 
schools and community violence can have on our students' ability to 
learn.
    1. Can you describe how you see the ``Successful, Safe, and Healthy 
Students'' program working to address physical violence in schools?
    2. The Department calls for school climate surveys, along with 
expulsion, suspension, and discipline data, to create a data-driven 
understanding of school safety. The blueprint does not reference 
incident-based law enforcement data as a part of the overall data 
collection and assessment. Does the Department agree with me about the 
need to incorporate incident-based law enforcement data for crimes 
which have occurred at schools and on school campuses into this overall 
data-driven approach to school safety?
    3. In the July, 2009, Committee joint hearing on strengthening 
federal school safety policy, we heard testimony stressing the 
importance of having a balanced and comprehensive approach to school 
safety which includes activities related to prevention, intervention, 
security, and emergency preparedness. The Department's approach and 
philosophy appears to have a strong focus on climate and prevention 
activities, which is good. Will the Department also include activities 
which support the security and emergency preparedness measures?
    4. The Department's blueprint calls for priority awards of 
competitive safe schools grants to districts partnering with nonprofit 
and community-based agencies. Can this priority also include not only 
nonprofits and community based organizations, but also give priority to 
schools partnering with first responders, public safety agencies, 
emergency management agencies, public mental health agencies, public 
health agencies, and other government organizations that can help with 
school safety planning?
    5. Does the administration believe corporal punishment in schools 
is an effective discipline technique? Does the Department have data on 
the effectiveness of corporal punishment? How is effectiveness of 
corporal punishment measured? Does the Department have data on whether 
States that permit corporal punishment have less disciplinary problems 
than other schools?
    6. The Blueprint raises the notion of holding parties besides 
educators accountable, but it appears that for the most part it is 
educators that are the overwhelming focus of the accountability system. 
How can we ensure that teacher assessments are based on multiple 
measures and that teachers are given the professional development they 
need to be effective?
    7. Who should we hold accountable when students fails to progress 
on science tests when their classroom is not equipped with a 
laboratory? Is that the responsibility of the teacher, the district, or 
the state?
    8. If there are issues of safety, deteriorating school buildings, a 
lack of teaching materials, poor curriculum, poor leadership shouldn't 
the district and states be held accountable?
    9. If parents do not attend parent-teacher conferences, fail to 
intervene on discipline issues or help their children with their 
homework shouldn't they be held accountable and provided with any 
resources needed to help them in this areas of shared responsibility?
    Representative Dina Titus (D-NV) has asked that you respond in 
writing to the following questions:
    I am pleased to see that you and the Administration are committed 
to making federal education dollars work smarter by making significant 
changes to the Elementary and Secondary Education Act (ESEA), and I 
look forward to working with you on this reauthorization.
    In particular, I applaud your focus on rewarding schools and 
districts for the progress they are making, and on helping struggling 
schools to improve, not just punishing them if they fall behind.
    The Administration's reauthorization blueprint proposes to 
consolidate 38 existing programs into 11 new programs and places a much 
greater emphasis on competitive grants. While I appreciate the 
Administration's desire to make the various funding streams work better 
together, as well as the innovation that can be spurred by competition, 
I have some concerns about how this change might impact schools in my 
district.
    In Nevada, education has been underfunded since statehood, and the 
current budget crisis has made that worse. A major shift to competitive 
grants, I fear, will result in even less funding and fewer resources, 
leaving our students at a disadvantage.
    1. What are the Administration's plans to ensure that school 
districts in states that may not have resources to compete aggressively 
for funding are not denied important resources, especially for programs 
which you have proposed to fold into other funding streams?
    2. Additionally, for states such as Nevada where the legislature 
must plan the budget two years in advance, how does the Department 
intend to move towards competitive grants while still providing states 
and districts with the stability they need to plan ahead?
    Representative Lynn Woolsey (D-CA) has asked that you respond in 
writing to the following questions:
    1. Secretary Duncan, please provide more detail about how funding 
would be made available through state and local education agencies in 
the proposed Effective Teaching and Learning for a Well-Rounded 
Education Program. Specifically, if core subjects of learning like 
music and the arts are grouped with other non-tested subjects, will 
each subject of learning be allotted a specific share of federal funds?
    2. Secretary Duncan, how can we be assured that the funds in the 
proposed Effective Teaching and Learning for a Well-Rounded Education 
Program will be used to address the need for the complete education of 
all children? Will new Department of Education policies provide 
incentives and reward communities for including broad curriculum 
offerings--including music and arts education--in their goals for a 
complete and quality education for all children and to prepare them for 
college and the workforce?
    3. We've unfortunately seen a narrowing of the curriculum in recent 
years where states are spending less time on non-tested subjects like 
music and arts and more time on tested subjects. Can you provide 
assurances that the Effective Teaching and Learning for a Well-Rounded 
Education Program would not allow the continuation of the narrowing of 
the curriculum?
    4. I was pleased to hear you mention the importance of getting more 
girls and minorities interested in STEM education. How do you plan to 
use the proposed Effective Teaching and Learning: Science, Technology, 
Engineering and Mathematics Program to increase interest and access at 
the Kindergarten through twelfth grade level?
    5. States and districts have struggled for years to develop 
appropriate assessment tools students with disabilities. What ideas 
does the Administration have to encourage the improvement of 
assessments and accommodations policies for students with disabilities?
    6. How can we ensure that every student will be ``ready-to-learn'' 
when he or she enters the classroom?
    7. Will the funding in the President's Budget for Promise 
Neighborhoods be sufficient to ensure that all of our students receive 
the necessary support services to succeed in the classroom?
    Representative Jared Polis (D-CO) has asked that you respond in 
writing to the following questions:
    First, I would like to commend you for putting forward a bold 
vision and plan for education reform and innovation. The blueprint's 
principles and framework offer a roadmap for overhaul to help us create 
a world-class education system that serves the needs of all children 
and raises the bar to the level needed for global leadership in college 
graduates, not merely competitiveness. In particular, I'm very pleased 
that the plan recognizes the critical role of public school choice as a 
tool for fostering, rewarding, expanding and replicating successful 
educational entrepreneurship that proves how we can get the job done 
and close the achievement gap against the odds. And it's very 
encouraging that this increased emphasis on successful models is 
coupled with a strong commitment to ensuring high levels of 
accountability and oversight from all parties involved in the 
chartering process.
    The blueprint recommends expanding high-performing public charter 
schools, which is desperately needed, as demand has far outpaced 
supply, with more than 700,000 children currently on charter school 
waiting lists nationwide. However, even this large unmet demand is 
artificially low when one considers that the majority of parents do not 
even know about their child's eligibility for choice. In a survey of 
eight large urban districts, only one out of five parents of students 
eligible for public school choice indicate they had been notified by 
their school districts and of those who parents who were notified, the 
majority indicated that the information received was incomplete or 
unhelpful.
    1. Can you discuss the Department's proposal for ensuring that 
parents are not only notified, but well-informed, about their public 
school choice rights and options? I'm afraid that unless we get this 
right this time around, we will continue to have only 1% participation 
rates among eligible students.
    Your proposal indicates a single competitive grant program ``to 
start or expand high-performing public charter schools.''
    1. Can you describe in more detail how you envision a competitive 
grant program that combines both new charter schools, which cannot have 
a track record of success, and the expansion of top-performing schools 
that have a demonstrated record of success?
    2. Don't you think that we need to continue investing in start-ups, 
but also have a dedicated program just for scaling up success?
    Every day, students who are, or are perceived to be, lesbian, gay, 
bisexual, or transgender (LGBT) are subjected to pervasive 
discrimination, including harassment, bullying, intimidation and 
violence. Surveys indicate as many as nine in 10 LGBT students have 
been bullied. Such actions deprive students of equal educational 
opportunities and contribute to high rates of absenteeism, dropout, 
adverse health consequences, and academic underachievement among LGBT 
youth. But unlike other forms of discrimination, such as on the basis 
of race, color, sex, religion, disability or national origin, civil 
rights protections do not explicitly include sexual orientation or 
gender identity.
    As the Department and Congress work towards ensuring safe and 
nurturing learning environments so that each and every child can learn 
and thrive, I think that it's critical for us to protect LGBT students 
from discrimination and harassment. That is why I have introduced HR 
4530, the Student Non-Discrimination Act in January, to prohibit 
discrimination based on a student's actual or perceived sexual 
orientation or gender identity in our public schools. The Act is 
modeled after Title IX's prohibition of sex discrimination.
    1. Can you please share with us your views on this issue and 
whether you think that prohibiting this type of discrimination would 
help achieve our goal of equal educational opportunity?
    Representative Rush Holt (D-NJ) has asked that you respond in 
writing to the following questions:
    1. In your testimony you make clear that ``we are calling on all 
states to develop and adopt standards in English language arts and 
mathematics that build to college and career readiness * * *''. I have 
a simple question, why not science Secretary Duncan?
    2. I want to commend your Administrations emphasis on data, but we 
need to move beyond year old data reported at the state level. I 
believe that LEA based data systems, that includes real time data from 
teacher created formative assessments can be a critical tool to allow 
teachers to identify the exact learning needs of their students, adjust 
classroom actions, and help identify the professional development needs 
of teachers. Would you support the creation of a new grant to help 
establish LEA data systems?
    3. In his speech before students, parents, and faculty at Hudson 
Valley Community College on September 21, 2009 the President presented 
a compelling case for how R&D is the life blood of innovation and 
America's future capacity to compete effectively in a global economy. 
That's why the federal government invests tens of billions of dollars 
each year in R&D in such sectors as defense ($80B), medicine ($30B), 
and energy ($10.5B). But what about education? The cabinet level agency 
with the lowest federal R&D budget--about $300 million--is the US 
Department of Education) The ARRA, for example, invested $22 billion in 
federal R&D programs but zero for education. With your clear emphasis 
on innovation in education, shouldn't R&D in education be a top 
priority too?
    4. Would the Administration be willing to support a reduction in 
the intensity and frequency of testing so that, particularly in the 
elementary grades, tests are used to evaluate and adjust instructional 
practice and not just force schools into the ``failed'' designation?
    5. By narrowing the kindergarten gap through the provision of high 
quality preschool, we are able to produce dramatically better readers 
and writers of English by 3rd grade. Yet, these lessons--widely 
accepted by research--are not reflected in the priorities of the 
Administration. Would you be willing to consider a special incentive--
perhaps a floor on spending on preschool and kindergarten--to divert 
attention to a high-quality early start for children from poor 
families?
    6. In President Obama's State of the Union address he mentioned 
that a world-class education is the best anti-poverty program. What 
role do you see school libraries playing in a world-class education, 
and what is the administration doing to promote school libraries?
    7. You always talk about funding programs that work--and Abbott 
pre-k has certainly proven itself--in that mindset, will you include 
high-quality pre-k in the Department's proposal for ESEA 
reauthorization? Could providing a high-quality pre-k programs as an 
instructional intervention be available under Title I to LEAs and 
schools identified for improvement? Will providing high-quality pre-k 
and strengthening instruction across pk-3 continuum be included as an 
eligible ``rigorous school intervention model'' under Title I School 
Improvement Grants, which you are proposing to re-name ``School 
Turnaround Grants''?
    8. You and the President have made numerous speeches in recent 
months calling on the need for students to possess 21st century skills 
like problem-solving, critical thinking, teamwork, entrepreneurship, 
and creativity and whether they have the knowledge of content and 
skills to thrive and find work when they graduate. How do you and the 
Department propose we implement that talk? Where do you see the 
placement and utilization of those skills within a new Elementary and 
Secondary Education Act?
    9. Every day, students who are, or are perceived to be, lesbian, 
gay, bisexual, or transgender (LGBT) are subjected to pervasive 
discrimination, including harassment, bullying, intimidation and 
violence, which is harmful to both students and our education system. 
These hurtful actions deprive students of equal educational 
opportunities and contribute to high rates of absenteeism, dropout, 
adverse health consequences, and academic underachievement among LGBT 
youth. Left unchecked, discrimination can lead, and has led, to life-
threatening violence and to suicide. How can schools respond to and 
prevent discrimination against LGBT students? What is the role of the 
federal government in ensuring that these students have access to 
educational opportunities that are equal to their peers?
    Chairman George Miller (D-CA) has asked that you respond in writing 
to the following questions:
    The idea of using the Individualized Education Program (IEP) to 
measure growth for students with disabilities in the Elementary and 
Secondary Education Act's accountability system was raised during 
questions. IEPs are not valid and reliable measures of academic 
proficiency or growth towards academic achievement standards, nor do 
IEPs provide any comparability for system accountability. Can you 
please clarify your position on this issue?
    Additionally, during questions, you spoke of measuring ``like 
students against like students.'' Could you provide us with a better 
understanding of this statement? Please elaborate on your efforts to 
ensure that all students, including students with disabilities, are 
included in growth models in order to achieve the goal of career and 
college-readiness.
    Representative Marcia Fudge (D-OH) has asked that you respond in 
writing to the following questions:
    1. Secretary Duncan, both you and the President emphasize the need 
for students to possess 21st century skills, such as problem-solving, 
critical thinking, teamwork, entrepreneurship, and creativity. I agree 
that these skills, coupled with academic excellence, will best prepare 
students for the global workforce. Where do you see the development of 
those skills within a new Elementary and Secondary Education Act? Is 
there a role for public-private partnerships in developing these 
skills?
    2. Every student in this country deserves a solid academic 
foundation and the opportunity to study higher level subjects that both 
interest them and make them more competitive for college. 
Unfortunately, many schools, especially those in low-income areas, lack 
the resources to provide their students with educational options such 
as foreign languages and AP courses. However, some school districts 
provide specialized courses to students through online courses. In your 
opinion, does access to specialized online courses provide students 
with educational opportunities they may not otherwise have, and if so, 
what can Congress do to encourage more schools to take advantage of 
online or virtual courses?
    3. I applaud the Administration's and Chairman Miller's promotion 
of Promise Neighborhoods. I am pleased that President Obama's budget 
request expands the program by reforming schools and augmenting social 
services for children. Will the latter be done through grants given to 
existing or newly launched Promise Neighborhoods? If not, does the 
Administration support increasing Promise Neighborhood implementation 
grants?
    I also have a question regarding the not yet release guidance for 
Promise Neighborhood grants already appropriated. Will preference be 
given to neighborhoods in cities currently without an existing promise 
neighborhood or children's zone?
    4. As you said in your remarks, President Obama's budget request 
includes additional Race to the Top funding, including a new 
competition for school districts. How do you imagine this new program 
will be structured? Also, with this and the other competitive grants, 
will technical assistance be given to smaller school districts that 
lack the resources to hire a grant writer?
    Please send an electronic version of your written response to the 
questions in Microsoft Word format to the Committee by March 31, 2010, 
the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 30, 2010.
Hon. Arne Duncan, Secretary,
U.S. Department of Education, 400 Maryland Avenue SW, Washington, DC.
    Dear Secretary Duncan: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``The Obama Administration's 
Elementary and Secondary Education Act Reauthorization Blueprint,'' on 
March 17, 2010.
    Committee Members have additional questions for which they would 
like written responses from you for the hearing record.
    Representative Cathy McMorris Rodgers (R-WA) has asked that you 
respond in writing to the following questions:
    1. Implementing standards-based education was a key element of 
NCLB, the premise of which is continued in your blueprint. I believe we 
need benchmarks against which to measure students' progress and their 
future success. Yet, I think we can all agree that having high 
standards does not alone guarantee high achievement. What do college 
and career ready standards mean under your proposal? How do they differ 
from the current state standards? How does your proposal ensure that 
students will achieve these standards? What has been left out of the 
discussion is curriculum. What role does curriculum play in ensuring 
that students achieve?
    2. Your proposal puts significant emphasis on evaluating the 
effectiveness of teachers. A recent survey conducted by the Gates 
Foundation reveals that teachers agree that students are leaving high 
school unprepared for college and careers. I find this unacceptable. We 
entrust our children to teachers to help prepare them for their 
futures. If teachers were in the private sector, they would be fired 
for failing to perform. Yet, many believe that nothing can be done. A 
group of superintendents in my district recently stated, ``Our hands 
are tied in dealing with mediocre teachers--the unions have become so 
strong and so much a voice in the state and local governing [sic] there 
is no ability to fire or release mediocre teachers. Until the state or 
federal government steps in and helps districts deal with this issue, 
we will have a difficult time reaching the accountability models 
proposed.'' What elements in your proposal will eliminate these 
barriers and create incentives to encourage teachers to be more 
effective in the classroom?
    3. One of the most overlooked accomplishments of NCLB is the 
progress made for disabled students. Yet, your proposal makes only 
passing reference to special needs students. How does your proposal 
protect and further these students' successes?
    Representative Bill Cassidy (R-LA) has asked that you respond in 
writing to the following questions:
    1. My Congressional district includes a number of small elementary 
and secondary school districts that receive fewer resources under the 
Title I program, on a per student basis, than larger school districts 
located in more populated areas, because Title I funding allocation 
formulas tend to favor large school districts. Smaller schools have 
fewer students to spread their fixed Administrative costs for things, 
such as computer systems. Therefore, it seems logical to say that 
smaller school districts should receive more per student, not less. If 
it is true that small districts have a higher administrative cost per 
student, then why do they receive less money than large districts? Will 
you consider reworking the Title I formulas to address this issue? This 
will ensure that federal dollars are fairly allocated to students no 
matter what size community in which they live.
    2. No Child Left Behind allows parents to have options to transfer 
their children out of poor performing schools and into higher-
performing schools in the area, or receive supplemental educational 
services (SES) in the community, such as tutoring, after-school 
programs, or remedial classes. As an advocate of parental choice, I 
want to ensure that parents still have the right to move their child 
out of a failing school or receive student support services. During the 
March 3 Full Committee hearing, you stated, ``I am not at all in 
opposition to supplemental services. In fact, you will be hard pressed 
to find a bigger advocate for tutoring and more time than me.'' But the 
Administration's blueprint eliminates the requirement that school 
districts provide parents with public school choice and SES, choosing 
to focus its efforts on turning around low-performing schools. Why did 
the Administration eliminate these parental options? What options will 
parents have to remove their kids from low-performing schools or to 
receive extra academic help if a school turnaround model takes 4 or 5 
years to implement?
    3. You define ``Challenge'' schools as being the lowest-performing 
5% of schools in a state, and require them to implement one of four 
turnaround models: a Transformation, a Turn-Around, a Restart, or a 
School Closure. In the first three types, teacher tenure will surely be 
a significant challenge. Will the Department of Education recommend how 
states and school districts should navigate this challenge and how 
states may grant principals more control over removing ineffective 
teachers?
    4. The blueprint requires states to implement assessment systems to 
adequately measure student growth. Will the Department provide grants 
or funding for states to establish these data systems to collect and 
publicize growth in English, math, science, graduation rates, and 
college enrollment rates?
    Please send an electronic version of your written response to the 
questions in Microsoft Word format to the Committee by March 31, 2010, 
and these questions are only arriving today, I ask that you provide 
your responses as soon as possible. If you have any questions, please 
do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
    [Secretary Duncan's responses to the questions submitted 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Whereupon, at 5:24 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
